No. 19In the

Supreme Court of the United States
IN THE MATTER OF:
LATITUDE SOLUTIONS, INCORPORATED,
Debtor,
CAREY D. EBERT,
Petitioner,
v.
JOHN PAUL DEJORIA; HOWARD MILLER APPEL;
EARNEST A. BARTLETT, III; MATTHEW J. COHEN,
Respondents.
On Petition for a Writ of Certiorari
Fifth Circuit Court of A ppeals

to the

PETITION FOR A WRIT OF CERTIORARI
J. E. Cullens, Jr.
Counsel of Record
Walters, Papillion, Thomas, Cullens, LLC
12345 Perkins Road, Building One
Baton Rouge, LA 70810
(225) 236-3636
cullens@lawbr.net
Counsel for Petitioner
290818

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Whether a bankruptcy trustee who proved at trial,
without objection, that defendants’ tortious conduct
(breach of fiduciary duty and aiding and abetting claims)
caused the debtor corporation to incur unpaid debt, has
Article III standing to assert those claims.

ii
PARTIES TO THE PROCEEDING
The caption to the case contains the names of all
parties except Glacier Value Partners LLC. After the
appeal to the Fifth Circuit was lodged, the bankruptcy
court authorized the sale and assignment of the underlying
Final Judgment (see attached App. B, pp. 21a-23a) to
Glacier Value Partners LLC. See Order, In re Latitude
Solutions, Inc., No. 12-46295-rfn-11 (Bankr. N.D. Tex.
July 20, 2018) (ECF No. 435). By Order of the District
Court, Hon. J. Reed O’Connor, issued on September 3,
2019, Glacier Value Partners LLC was recognized and
substituted as the real party in interest in this action in
lieu of bankruptcy Trustee Carey D. Ebert. See Order,
Ebert v. Appel, No. 4:15-cv-00225-0 (N.D. Tex., Fort
Worth Div. September 3, 2019) (ECF No. 387). Both of
these Orders authorized this litigation to proceed in the
Trustee’s name. Id.

iii
RULE 29.6 STATEMENT
Glacier Value Partners LLC is a limited liability
compa ny, the members of wh ich a re Brookda le
International Partners, L.P., a New York limited
partnership, and Brookdale Global Opportunity Fund, a
Cayman Islands exempted company. No owner or member
of Glacier Value Partners LLC has issued shares or debt
securities to the public.

iv
RELATED CASES
In re Latitude Solutions, Inc, Debtor, U.S. Bankruptcy
Court for the Northern District of Texas, Fort Worth
Division, Case No. 12-46295-elm7. Pending.
Carey D. Ebert v. Howard Miller Appel, et al., U.S.
District Court for the Northern District of Texas, Fort
Worth Division, Civil Action No. 4:15-cv-225-0. Final
Judgment entered March 7, 2018.
In the Matter of: Latitude Solutions, Incorporated,
Debtor, Carey D. Ebert, Appellee, v. John Paul DeJoria,
et al., U.S. Court of Appeals for the Fifth Circuit, No.
18-10382. The Opinion, dated April 30, 2019, of the Fifth
Circuit is published at 922 F.3d 690 (5th Cir. 2019), and
the rehearing requested by Petitioner here was issued
on June 12, 2019.

v
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . . . ii
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . . .  iii
RELATED CASES  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . .  viii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . x
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTES AND CONSTITUTIONAL
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 2
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 4
A. Proceedings In The District Court . . . . . . . . . . . 4
B. Proceedings In The Court of Appeals . . . . . . . . . 5
REASONS FOR GRANTING THE PETITION . . . . . 8

vi
Table of Contents
Page
I.

This Court’s Review is Warranted Because
the Fifth Circuit’s Decision Conflicts with
Relevant Decisions of this Court and the
Decisions of other United States Court
of Appeals Regarding Constitutional
Article III Standing Analysis . . . . . . . . . . . . . . . . 9
A. Respondents’ Equitable, Merits-Based
Defenses to the Trustee’s Claims Are
Nonjurisdictional According to Relevant
Decisions of this Court and Cannot
Be Used to Defeat Subject Matter
Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . . 11
B. The Fifth Circuit and the Second
Ci rcu it Er roneously Con f lat e
Constitutional Article III Standing with
Nonjurisdictional Standing . . . . . . . . . . . . . 14

II. T h i s Ca s e I nvol ve s a n Ex t r e mely
Impor tant Question of Federal Law
that Threatens to Preclude Bankruptcy
Trustees from Recovering Damages
from Tortfeasors Whose Conduct Causes
Direct Injury to the Bankrupt Debtor  . . . . . . .  17

vii
Table of Contents
Page
III. The Fifth Circuit’s Decision has so Far
Departed from the Accepted and Usual
Course of Judicial Proceedings that an
Exercise of this Court’s Supervisory Power
is Warranted and Summary Reversal
May Be Appropriate  . . . . . . . . . . . . . . . . . . . . . . 20
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

viii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
	FIFTH CIRCUIT, FILED APRIL 30, 2019 . . . . . . 1a
A ppendi x b — F I NA L J U D GM EN T
of the UNITED STATES DISTRICT
COURT FOR THE NORTHERN DISTRICT
OF TEX AS, FORT WORTH DI VISION,
filed march 7, 2018 . . . . . . . . . . . . . . . . . . . . . . 21a
APPENDIX C — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF TEXAS, FORTH
WORTH DIVISION, FILED MARCH 7, 2018 . . . 24a
Appendix D — ORDER of the UNITED
STATES DISTRICT COURT FOR THE
NORTHER N DI S TR IC T OF TE X A S ,
F ORT WORT H DI V I SION, F I L ED
JANUARY 22, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . . 33a
APPENDIX E — JURY CHARGE OF THE
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF
T EX A S , FORT H WORT H DI V ISION,
	FILED JULY 14, 2017  . . . . . . . . . . . . . . . . . . . . . . . 67a
APPENDIX F — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT,
	FILED JUNE 12, 2019 . . . . . . . . . . . . . . . . . . . . . . . 86a

ix
Table of Appendices
Page
A ppendi x G — S T A T U TE S A N D
REGULATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . 88a

x
TABLE OF CITED AUTHORITIES
Page
Cases
Baena v. KPMG, LLP,
453 F.3d 1 (1st Cir. 2006) . . . . . . . . . . . . . . . . . . . . . . 15
Bell v. Hood,
327 U.S. 678 (1946)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Caplin v. Marine Midland Grace Tr. Co.,
406 U.S. 416 (1972)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Gonzalez v. Thaler,
565 U.S. 134 (2012)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Grede v. Bank of New York Mellon,
598 F.3d 899 (7th Cir. 2010) . . . . . . . . . . . . . . . . . . . . 12
Henderson ex rel. Henderson v. Shinseki,
562 U.S. 428 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
In re Am. Tissue, Inc. v. Donaldson,
351 F. Supp. 2d 79 (S.D.N.Y. 2004)  . . . . . . . . . . . . . . 22
In re Arizona State Legislature v.
Arizona Indep. Redist. Com’n,
135 S. Ct. 2652 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . 11
In re Educators Group Health Trust
(“Educators”) v. Wright,
25 F.3d 1281 (5th Cir. 1994) . . . . . . . . . . . . . . . . . . . 6, 7

xi
Cited Authorities
Page
In re Seven Seas Petroleum, Inc. (“Seven Seas”),
522 F.3d 575 (5th Cir. 2008) . . . . . . . . . . . . . . . . . 5, 6, 7
In re Waterford Wedgwood USA, Inc.,
529 B.R. 599 (Bankr. S.D.N.Y. 2015) . . . . . . 7, 8, 14, 22
Int’l Meat Traders, Inc. v. H&M Food Sys.,
70 F.3d 836 (5th Cir. 1995) . . . . . . . . . . . . . . . . . . . . . 11
Lexmark Int’l, Inc. v.
Static Control Components, Inc.,
572 U.S. 118 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Norris v. Causey,
869 F.3d 360 (5th Cir. 2017) . . . . . . . . . . . . . . . . . 12, 13
O’Halloran v. First Union Nat’l Bank,
350 F.3d 1197 (11th Cir. 2003) . . . . . . . . . . . . . . . . . . 16
Official Comm. of Unsecured Creditors v.
Edwards,
437 F.3d 1145 (11th Cir. 2006), cert. denied,
549 U.S. 811 (2006) . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Official Comm. of Unsecured Creditors v.
R.F. Lafferty & Co., Inc.,
267 F.3d 340 (3d Cir. 2001) . . . . . . . . . . . . . . . . . . 13, 15
Puckett v. United States,
556 U.S. 129 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

xii
Cited Authorities
Page
Reneker v. Offill,
2009 WL 3365616 (N.D. Tex. Oct. 20, 2009)  . . . . . . 24
Reneker v. Offill,
2009 WL 804134 (N.D. Tex. Mar. 26, 2009) . . 7, 23, 24
Rideau v. Keller Indep. Sch. Dist.,
819 F.3d 155 (5th Cir. 2016)  . . . . . . . . . . . . . . . . . . . . 12
Scholes v. Lehmann,
56 F.3d 750 (7th Cir. 1995) . . . . . . . . . . . . . . . . . . . . . 16
Senior Cottages of America, LLC,
482 F.3d 997 (8th Cir. 2007) . . . . . . . . . . . . . . . . .  16, 17
Shearson Lehman Hutton, Inc. v. Wagoner,
944 F.2d 114 (2d Cir. 1991) . . . . . . . . . . . .  14, 15, 16, 17
Sprint Communications, Inc. v. Jacobs,
571 U.S. 69 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Stanley v. Trinchard,
500 F.3d 411 (5th Cir. 2007) . . . . . . . . . . . . . . . . . 18, 19
Steel Co. v. Citizens for a Better Env’t,
523 U.S. 83 (1998) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Susan B. Anthony List v. Driehaus,
573 U.S. 149 (2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

xiii
Cited Authorities
Page
Terlecky v. Hurd (In re Dublin Securities, Inc.),
133 F.3d 377 (6th Cir.1997) . . . . . . . . . . . . . . . . . . . . . 16
U.S. v. Appel,
2:18-cr-00321-PD (E.D. Pa. July 27, 2018) . . . . . . . . 21
Statutes and Other Authorities
U.S. Const. art. III, § 2, cl. 1 . . . . . . . . . . . . . . . . . . passim
11 U.S.C. § 541(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 6
11 U.S.C. § 704(1)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 6
28 U.S.C. § 157  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 158  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. § 158(d)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1-2
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1, 2
28 U.S.C. § 1334  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
6A Charles Alan Wright, et al., Federal Practice
& Procedure § 1543 (3d ed.) . . . . . . . . . . . . . . . . . . . . 12
13 Charles Alan Wright et al., Federal Practice
and Procedure § 3531 (2006 Supp.) . . . . . . . . . . . 13, 19

xiv
Cited Authorities
Page
Dan Schechter, Trustee Lacks Standing to Sue
Because Corporate Insiders’ Prepetition
Beh av i o r Is Imp ut ed t o Co r po r a ti o n,
2003 Comm. Fin. Newsl. 61 . . . . . . . . . . . . . . . . . . . . 15
Jeffrey Davis, Ending the Nonsense: The In Pari
Delicto Doctrine Has Nothing to Do with What
Is § 541 Property of the Bankruptcy Estate,
21 Emory Bankr. Dev. J. 519 (2005) . . . . . . . . . . . . . 15
John T. Gregg, The Doctrine of In Pari Delicto:
Recent Developments, 2006 Norton Annual
Survey of Bankruptcy Law Part I § 5 . . . . . . . . . . . 15
Russell C. Silberglied, Litigating Fiduciary
Duty Claims in Bankr uptcy Cour t
an d Beyo n d: Theo r y an d Pra ctical
Considerations in an Evolving Environment,
10 J. Bus. & Tech. L. 181 (2015) . . . . . . . . . . . . . . . . . 20

1
OPINIONS BELOW
The Trustee originally filed suit against Respondents
in the U.S. Bankruptcy Court for the Northern District
of Texas, Fort Worth Division, styled In re Latitude
Solutions, Inc, Debtor, Case No. 12- 46295 -elm7.
Respondents filed a motion to withdraw the reference,
which was granted, and the Trustee’s suit was transferred
to the U.S. District Court for the Northern District of
Texas, Fort Worth Division, styled Carey D. Ebert v.
Howard Miller Appel, et al., Civil Action No. 4:15-cv-2250. Following a five-day jury trial in July 2017, the Final
Judgment of the District Court, which adopted the jury’s
verdict, was entered on March 7, 2018, a copy of which is
attached as App. B, pp. 21a-23a. Respondents appealed
this Final Judgment to the U.S. Court of Appeals for the
Fifth Circuit, in an appeal styled In re Latitude Solutions,
Incorporated, Debtor, Carey D. Ebert, Appellee, v. John
Paul DeJoria, et al., No. 18-10382. The ruling of the Fifth
Circuit is published at 922 F.3d 690 (5th Cir. 2019), and
the Opinion of the Fifth Circuit, filed April 30, 2019, is
attached as App. A, pp. 1a-20a. The Fifth Circuit denied
Petitioner’s petition for rehearing and issued its Opinion
on June 12, 2019. The Trustee1 petitions for a writ of
certiorari to review the Fifth Circuit’s decision.
JURISDICTION
The Fifth Circuit issued its decision on June 12, 2019.
This Court has jurisdiction under 28 U.S.C. §1254(1). The
Fifth Circuit had jurisdiction under 28 U.S.C. § 158(d)
1. As used herein, the “Trustee” refers to the bankruptcy
Trustee, Carey D. Ebert, the nominal petitioner for the real party
in interest, Glacier Value Partners LLC.

2
(1). The District Court and the Bankruptcy Court had
jurisdiction under 28 U.S.C. §§157, 158, and 1334.
STATUTES AND CONSTITUTIONAL
PROVISIONS INVOLVED
This case involves U.S. Const. art. III, § 2, cl. 1; 11
U.S.C. §§ 541(a)(1), 704(1); and 28 U.S.C. §§ 157, 158(d)
(1), 1254(1), and 1334. The relevant provisions of the
Constitution and cited Statutes are set forth in App. G,
pp. 88a-103a.
INTRODUCTION
This petition arises out of a five-day trial at which
a unanimous jury determined that Matthew Cohen,
John Paul DeJoria, Howard Appel, and Ernest Bartlett
(“Respondents”) together engaged in a scheme to squander
assets of Latitude Solutions, Inc. (“LSI”), a publicly traded
corporation, for their personal benefit. On the basis of
extensive evidence that Respondents’ involvement with
LSI was nothing more than an attempted pump-and-dump
scheme, the jury returned a verdict against Respondents
on all counts. As pertinent here, the jury found that Cohen
had breached his fiduciary duties as an officer and director
of LSI, and that DeJoria, Appel, and Bartlett had aided
and abetted that breach. App. E, 76a-83a. The district
court thus imposed joint-and-several damages against
all four Respondents in the amount of $6.9 million. App.
B, p. 22a. A large portion—$6.5 million—of that amount
reflected the jury’s finding that Cohen, as aided and
abetted by the other Respondents, had wrongfully caused
LSI to take on a debt to a third party, Jabil, Inc., which
remained unpaid at the time of trial.

3
On appeal, the Fifth Circuit vacated that portion of
the damages award, holding that a corporation suffers no
cognizable injury when its officers and directors, acting
unlawfully and for personal gain, cause a corporation to
incur massive, unpayable debts that would not otherwise
have been incurred and that trigger its bankruptcy. The
Fifth Circuit therefore vacated $6,500,000 of the award,
see App. A, pp. 8a-12a., holding that there is no Article III
standing where “a bankruptcy trustee sue[s] and argue[s]
a debt it owes constitutes an injury, despite having made
no payments.” App. A., 10a. 2 Compounding its error,
the Fifth Circuit reached that result even though the
dispute as a whole plainly presented a justiciable case or
controversy, since the panel itself affirmed other damages
on the same claim.
In reaching its holding, the Fifth Circuit aligned itself
with the Second Circuit, which has routinely considered
equitable, merits-based defenses to be part of the
constitutional Article III standing analysis. The decision
below thus conflicts with decisions of numerous other
circuits, which have departed from and openly criticized
the Second Circuit’s rule. Moreover, by permitting meritsbased arguments to be raised as defenses to jurisdictional
standing, and thus dramatically increasing the number of
non-waivable arguments, the decision threatens judicial
economy and undermines our adversarial system of
justice. The result of the decision below is to preclude
recovery in a vast array of bankruptcy-court actions that
have, until now, been commonplace. This Court’s review
is warranted.
2. Because of its erroneous Article III standing ruling, the
Fifth Circuit also reversed a total of $8 million in exemplary
damages awarded by the jury against Respondents based upon
their tortious conduct proven at trial.

4
STATEMENT OF THE CASE
A. Proceedings In The District Court
After a five-day trial, a unanimous jury in the Northern
District of Texas concluded that Respondents had together
engaged in a scheme to squander assets of Latitude
Solutions, Inc. (“LSI”) for personal benefit. ROA.750509;3 App E. The jury’s findings focused on Respondents’
efforts to enable Appel, whom each Respondents knew was
a serial securities manipulator and convicted corporate
fraudster, to surreptitiously influence corporate actions
and engage in fraudulent actions to temporarily boost
LSI’s share price to the company’s long-term detriment.
Trustee Br. 3-14.4 Based on that conduct, the jury found
Cohen and DeJoria liable for breaching their fiduciary
duties to LSI, and DeJoria, Appel, and Bartlett liable for
aiding and abetting Cohen’s breach. ROA.7505-06; App
E, pp. 76a-83a.
One measure of damages was based on debt
Respondents caused LSI to take on as part of their
scheme. See ROA.7507; App. E, pp. 79a-81a. And one
such debt was incurred when Cohen, in the hope of
personal gain, caused LSI to agree to pay Jabil, Inc.
(“Jabil”), an equipment manufacturer, millions of dollars
to manufacture machinery from which LSI had no hope
of profiting. By the time LSI filed for bankruptcy, LSI
owed Jabil $9,550,000. App. A, p. 5a. Without objection
3. 	“ROA” refers to the Record on Appeal maintained by the
Fifth Circuit.
4. 	“Trustee Br.” refers to the “Brief For Appellee” filed in
the Fifth Circuit.

5
from Respondents, the jury was instructed to quantify
the value of “liabilities incurred by LSI” as a result of
Cohen’s “breach of fiduciary duty.” ROA.7507; App. E, pp.
79a-81a. It assessed $6,500,000 in damages, apparently
reflecting a portion of the total debt, as well as $400,000
in response to a separate instruction to quantify Cohen’s
unlawful gains. Id. And, pursuant to Texas law, Cohen’s
abettors were deemed jointly and severally liable for both
amounts. ROA.8561-69; App. B, p. 22a.
B. Proceedings In The Court of Appeals
On appeal, Respondents argued for the first time
that the Trustee’s Claims5 were “a classic example of a
creditor claim that the trustee has no standing to assert.”
DeJoria Br. 18; see ABC Br. 20 (trustee “has no right to
bring claims that belong solely to the estate’s creditors”)
(quoting In re Seven Seas Petroleum, Inc. (“Seven Seas”),
522 F.3d 575, 584 (5th Cir. 2008)).6 In response, the Trustee
pointed out that she plainly had constitutional standing,
since, as the jury had found, “LSI was harmed when
Respondents caused it to take on millions of dollars of
debt that it had no hope of repaying,” and that harm could
be redressed by damages. Trustee Br. 22. Therefore, the
Trustee argued, any suggestion that the Claims belonged
to LSI’s creditors was irrelevant to jurisdiction and thus
waived because it was never raised below. Id. at 23-24.
5. As used herein, “Claims” refers to the breach of fiduciary
duty and aiding and abetting claims that the Trustee asserted
against Respondents.
6. 	“DeJoria Br.” refers to “Opening Brief of Appellant John
Paul DeJoria”; “ABC Br.” refers to “Brief For Appellants, Howard
Miller Appeal, et al.”.

6
Moreover, the Trustee emphasized, the Claims
asserted breaches of duties owed to LSI, and the jury had
expressly found that those breaches injured LSI, so the
Claims were plainly LSI’s to assert. Id. at 24-28. In short,
the Trustee stands in the shoes of the Debtor and has the
authority to bring suit on behalf of the Debtor for breaches
of fiduciary duty by insiders and third parties.7 In support
of those contentions, the Trustee cited numerous cases,
including Seven Seas and In re Educators Group Health
Trust (“Educators”) v. Wright, 25 F.3d 1281 (5th Cir. 1994),
two Fifth Circuit cases establishing that a bankruptcy
trustee has “exclusive standing” to pursue a claim that a
defendant’s wrongdoing caused the debtor’s insolvency.
E.g., Trustee Br. 25 n.7 (citing Seven Seas, 522 F.3d at 584;
Educators, 25 F.3d at 1284-85). As the Trustee further
noted, Educators squarely holds that an action to recover
damages for unpaid liabilities is “cognizable” in federal
court. Trustee Br. 48. That is because incurring such
liabilities constitutes “a direct injury to the debtor.” 25
F.3d at 1284-85 (emphasis added).
In reply, Respondents abandoned any argument that
the Claims did not belong to LSI. See, e.g., DeJoria Reply
Br. 16 (agreeing that “the Trustee has standing to pursue
a fiduciary-duty claim on behalf of LSI”). Nevertheless,
7. It is the duty of the trustee in bankruptcy to “collect and
reduce to money the property of the estate for which such trustee
serves.” 11 U.S.C. § 704(1). The property of the estate includes
“all legal or equitable interests of the debtor in property as of
the commencement of the case.” 11 U.S.C. § 541(a)(1). Causes of
action are interests in property and are therefore included in the
estate; it follows that the trustee has standing under § 704(1) to
assert causes of action that belonged to the debtor at the time of
filing bankruptcy.

7
Respondents sought to argue that, regardless of who
possessed the Claims, LSI’s incurrence of debt somehow
constituted Article III injury only to Jabil. DeJoria Reply
14-19; ABC Reply 5-10. At oral argument, Respondents
all but abandoned even that argument, referring to it only
in rebuttal.
The Fifth Circuit adopted the argument anyway.
Without mentioning Seven Seas or Educators, it pointed
to a supposed dearth of Fifth Circuit authority addressing
whether a trustee may sue a third party for damages
related to an unpaid debt. App. A, p. 10a (“Although we
have not squarely addressed Article III standing under
the circumstances presented in this case . . . “). Instead,
it invoked In re Waterford Wedgwood USA, Inc., 529
B.R. 599 (Bankr. S.D.N.Y. 2015), and Reneker v. Offill,
2009 WL 804134 (N.D. Tex. Mar. 26, 2009). Those cases,
it concluded, establish that a trustee lacks Article III
standing to “sue[] and argue[] a debt it owes constitutes an
injury, despite having made no payments.” App. A, p. 10a.
Relying entirely on those cases, the Fifth Circuit
vacated $6,500,000 of the damages award against Cohen,
concluding that it “represent[ed] Jabil’s injury, not LSI’s.”
App. A, 9a. The Fifth Circuit asserted that because LSI
received the equipment it purchased from Jabil, failed to
pay Jabil’s invoices, and then filed for bankruptcy, LSI
“benefitted” from the Jabil contract, despite the massive
liability the contract imposed and the bankruptcy it
triggered. The Fifth Circuit reached that conclusion
despite concluding elsewhere in its opinion that Cohen
had breached his duty by causing LSI to enter into the
contract “for nefarious purposes,” and observing that
the equipment was basically valueless to LSI. App. A, pp.

8
15a-16a (“LSI had no idea whether the machinery from
the Jabil contract would work,” and “no business plan, or
leads to monetize the equipment from the contract”). App.
A, p. 14a. On the basis of the supposed “benefit” to LSI,
the Fifth Circuit held there was no Article III jurisdiction
to assess damages for LSI’s indebtedness, even while it
affirmed the assessment of $400,000 in other damages
against Cohen on the very same claim. App. A, p. 16a.
REASONS FOR GRANTING THE PETITION
The Fifth Circuit’s decision conflicts with relevant
decisions of this Court and deepens a circuit split on the
question of whether Article III standing may be defeated
by the presence of nonjurisdictional, merit-based defenses
(such as real-party-in-interest, in pari delicto, estoppel,
and measure of damages). As the First, Third, Sixth,
Seventh, Eight, and Eleventh Circuits have correctly
recognized, a proper analysis of constitutional standing
does not include an analysis of such defenses. With
its decision in this case, and its reliance on Waterford
Wedgewood, the Fifth Circuit joins the Second Circuit
in erroneously holding that courts may incorporate
such equitable defenses into the constitutional Article
III standing analysis. This Court’s review is therefore
necessary to restore uniformity to federal law.
Moreover, the constitutional question presented here is
critically important. The Fifth Circuit’s holding threatens
to preclude bankruptcy trustees from recovering damages
from tortfeasors whose conduct causes direct injury to the
bankrupt Debtor in the form of corporate debt. Thus, if
allowed to stand, the Fifth Circuit’s decision will deprive
bankruptcy trustees of any meaningful recovery in many,

9
commonplace bankruptcy cases, frustrating bankruptcy
law’s core aim of permitting innocent creditors of the
Debtor to obtain recoveries to which the corporation was
entitled to at the time a bankruptcy petition was filed.
Moreover, this case is an excellent vehicle for reviewing
the question presented, because that question is squarely
presented and dispositive. A jury has already found the
Respondents liable for a variety of state-law torts. The
only reason the portion of award at issue here no longer
stands is the Fifth Circuit’s conclusion that the Trustee
lacked Article III standing. This Court’s resolution of that
question in petitioner’s favor would necessarily result in
vacatur of the Fifth Circuit’s judgment.
I.

This Court’s Review is Warranted Because the
Fifth Circuit’s Decision Conflicts with Relevant
Decisions of this Court and the Decisions of
other United States Court of Appeals Regarding
Constitutional Article III Standing Analysis

This Court recently advised lower courts to be careful
when placing the “jurisdictional” label on a particular
defense raised by a party. “Because the consequences that
attach to the jurisdictional label may be so drastic,” wrote
this Court, “we have tried in recent cases to bring some
discipline to the use of this term. We have urged that a rule
should not be referred to as jurisdictional unless it governs
a court’s adjudicatory capacity, that is, its subject-matter
or personal jurisdiction.” Henderson ex rel. Henderson
v. Shinseki, 562 U.S. 428, 435 (2011)(citations omitted).
Indeed, other recent decisions of this Court have called
into question whether a court may deny standing for
prudential reasons after Article III requirements have

10
been met. See, e.g., Susan B. Anthony List v. Driehaus,
573 U.S. 149, 167 (2014). 8
Rather than heed this Court’s urging to be disciplined
about characterizing defenses as jurisdictional, the
Fifth Circuit in this case wrongly embraced Defendants’
untimely, merit-based defenses as constitutional Article
III standing challenges which deprived it of jurisdiction
over most of the Trustee’s claims. Whether debt incurred
by the LSI Debtor is a proper measure of damages and
whether the Trustee is the real party in interest are
separate questions from whether the Trustee meets
the threshold “case-or-controversy” component of the
constitutional Article III standing analysis. In failing to
recognize that principle, the Fifth Circuit diverged from
the majority view of the other federal courts of appeals.

8. “But we have already concluded that petitioners have
alleged a sufficient Article III injury. To the extent respondents
would have us deem petitioners’ claims nonjusticiable “on grounds
that are ‘prudential,’ rather than constitutional,” “[t]hat request
is in some tension with our recent reaffirmation of the principle
that ‘a federal court’s obligation to hear and decide’ cases within
its jurisdiction ‘is virtually unflagging.’” Susan B., 573 U.S. at
167 (citing and quoting Lexmark Int’l, Inc. v. Static Control
Components, Inc., 572 U.S. 118, 125-126 (2014)(quoting Sprint
Communications, Inc. v. Jacobs, 571 U.S. 69, 77 (2013)(some
internal quotation marks omitted); Gonzalez v. Thaler, 565 U.S.
134, 141-144 (2012)(“Recognizing our less than meticulous use of
the term in the past, we have pressed a stricter distinction between
truly jurisdictional rules, which govern a court’s adjudicatory
authority, and nonjurisdictional claim-processing rules, which do
not.”)(internal quotation marks omitted).

11
A.

Respondents’ Equitable, Merits-Based Defenses
to the Trustee’s Claims Are Nonjurisdictional
According to Relevant Decisions of this Court
and Cannot Be Used to Defeat Subject Matter
Jurisdiction

For the first time after trial and on appeal, Respondents
raised and argued that either (a) the Trustee did not suffer
a sufficient “injury in fact” to satisfy Article III standing;
and/or (b) the Trustee lacked Article III standing because
she was really asserting claims that belonged to another
entity, Jabil, the primary creditor of LSI. Although
labelled as “standing” issues, Respondents’ claims were
actually equitable, merits-based defenses; namely, (a)
improper-measure-of-damages, and (b) real-partyin-interest challenges to the Trustee’s claims against
Respondents.
The existence of a defense to a cause of action or to
the capacity of plaintiff to bring it does not deprive the
plaintiff of constitutional Article III standing. Bell v.
Hood, 327 U.S. 678, 682 (1946); Arizona State Legislature
v. Arizona Indep. Redist. Com’n, 135 S.Ct. 2652 (2015)
(weakness on the merits must not be confused with the
absence of Article III standing); Steel Co. v. Citizens
for a Better Env’t, 523 U.S. 83, 94 (1998). The impropermeasure-of-damages and real-party-in-interest defenses
raised by Respondents here are nonjurisdictional in
nature.9 Even if such equitable defenses appear on the
face of the complaint, they do not deprive the plaintiff of
constitutional standing to assert the claim, though the
9. Int’l Meat Traders, Inc. v. H&M Food Sys., 70 F.3d 836,
840 (5th Cir. 1995) (real- party-in-interest defense is “not to be
used as a trial-by-ambush tactic,” and is “waived … because of its
tardiness” where raised afterwards).

12
defense may ultimately prove fatal to the claim if raised
timely and sufficiently proven. Under no circumstance,
however, should such equitable defenses cause the court
to conclude that it lacks subject matter jurisdiction to
decide the parties’ dispute.
Although “[t]he ‘standing’ label” is sometimes “placed
on” equitable defenses like these (especially by litigants
who, like Respondents, failed to timely raise them
below), the question of “who, according to the governing
substantive law, is entitled to enforce [a] right” is “a
merits question,” not a jurisdictional one. See Norris
v. Causey, 869 F.3d 360, 366-68 (5th Cir. 2017).10 And
because these questions do “not go to a court’s subject
matter jurisdiction,” they are waived if not timely raised
in the trial court.
It was therefore incumbent on Respondents to
raise and argue their equitable defenses timely. See,
e.g., Puckett v. United States, 556 U.S. 129, 134 (2009)
(if a litigant believes that an error has occurred (to his
detriment) during a federal judicial proceeding, he must
object in order to preserve the issue). Yet, despite raising
10. Quoting 6A Charles Alan Wright, et al., Federal Practice
& Procedure § 1543 (3d ed.). See also Caplin v. Marine Midland
Grace Tr. Co., 406 U.S. 416, 422, 434- 35 (1972) (referring to issue
as “standing,” but clarifying that it “is capable of resolution by
explicit congressional action,” and is thus not constitutional);
Rideau v. Keller Indep. Sch. Dist., 819 F.3d 155, 163 n.7 (5th Cir.
2016)(where “the claim actually belongs to one person, but the
action is filed by another person,” issue is “a waivable capacity
problem, not a jurisdictional standing problem”)(alterations and
internal quotation marks omitted); Grede v. Bank of New York
Mellon, 598 F.3d 899, 900 (7th Cir. 2010)(trustee’s power to bring
particular claim “is a question on the merits rather than one of
justiciability”).

13
analogous challenges as to other causes of action, 11
Respondents never pressed any argument in the district
court that the Trustee was not the appropriate party to
bring the corporation’s breach of fiduciary duty and aiding
and abetting claims against them. Respondents’ equitable
defenses were therefore waived prior to appeal, and they
cannot provide the grounds for the Fifth Circuit’s decision.
Application of the Article III constitutional analysis
is straightforward here. As the jury found, LSI was
harmed when Respondents caused it to take on millions
of dollars of debt that it had no hope of repaying. As the
jury found, that debt was a direct result of the efforts of
Respondents, who were corporate fiduciaries and their
abettors, to inflate LSI’s stock price for their personal
gain. And, as in Norris, “this litigation can redress the
loss through damages, as the judgment demonstrates.”
Norris, 869 F.3d at 366. Thus, there can be no doubt about
LSI’s (and, in bankruptcy, the Trustee’s) constitutional
standing to assert these claims. To overcome their failure
to raise—much less prove—these merit-based defenses in
the district court, Respondents disguised them in standing
“garb”12 in the hope of misleading the Fifth Circuit on
appeal. Unfortunately, the Respondents’ ruse worked.
11. For example, in this case, Respondents sought and
obtained a pre-trial dismissal of certain “securities fraud” and
“blue sky” claims that the district court considered as belonging
to individual investors in LSI, and not the corporation.
12. See 13 Charles Alan Wright et al., Federal Practice and
Procedure § 3531 (2006 Supp.)(stating with regard to the standing
argument rejected by the Third Circuit in In Official Comm. of
Unsecured Creditors v. R.F. Lafferty & Co., Inc., 267 F.3d 340,
346 (3rd Cir.2001): “The urge to cloak routine cause-of-action
questions in Article III garb seems to be irresistible.”).

14
B. The Fifth Circuit and the Second Circuit
Erroneously Conflate Constitutional Article
III Standing with Nonjurisdictional Standing
The Fifth Circuit reached its conclusion in reliance on
Waterford Wedgwood, which reflects a rule—heretofore
adopted only by the Second Circuit—that a corporation
does not have standing to bring a claim against outsiders
for defrauding a corporation with the cooperation of an
insider of the corporation. The rule arose in Shearson
Lehman Hutton, Inc. v. Wagoner, 944 F.2d 114 (2d
Cir.1991). There, the sole shareholder, sole director and
president of the corporation engaged in stock trades
that allegedly dissipated the assets of the corporation.
Id. at 117. The corporation filed for bankruptcy, and the
bankruptcy trustee initiated arbitration against the
corporation’s stockbroker for fraud. Id. The district court
enjoined the trustee from proceeding with the arbitration,
and the Second Circuit affirmed. Rather than relying on
the equitable, merit-based defense of in pari delicto or
simply the absence of the element of reliance for the fraud
claim, the Second Circuit analyzed the case as presenting
a constitutional Article III standing problem:
In our analysis of the question presented, the
“case or controversy” requirement coincides
with the scope of the powers the Bankruptcy
Code gives a trustee, that is, if a trustee has
no power to assert a claim because it is not one
belonging to the bankrupt estate, then he also
fails to meet the prudential limitation that the
legal rights asserted must be his own.

15
Id. at 118. The Second Circuit then framed a broad
standing rule holding, “A claim against a third party
for defrauding a corporation with the cooperation of
management accrues to creditors, not to the guilty
corporation.” Id. at 120. The Second Circuit arrives at its
erroneous “standing” rule by incorporating an equitable,
merits-based defense (namely, in pari delicto) into its
constitutional Article III analysis. Although the Wagoner
rule has been followed in the Second Circuit, it has also
been criticized for characterizing an in pari delicto
defense as a jurisdictional standing issue.13
The majority of United States court of appeals have
rejected the lead of the Second Circuit and have declined
to conflate the constitutional standing doctrine with the
in pari delicto defense—or any other equitable, meritbased, nonjurisdictional defense. The First,14 Third,15
13. See Jeffrey Davis, Ending the Nonsense: The In Pari
Delicto Doctrine Has Nothing to Do with What Is § 541 Property
of the Bankruptcy Estate, 21 Emory Bankr.Dev. J. 519, 522–530
(2005); John T. Gregg, The Doctrine of In Pari Delicto: Recent
Developments, 2006 Norton Annual Survey of Bankruptcy
Law Part I § 5; Dan Schechter, Trustee Lacks Standing to Sue
Because Corporate Insiders’ Prepetition Behavior Is Imputed to
Corporation, 2003 Comm. Fin. Newsl. 61 (“In my opinion, the rule
in Wagoner is nonsensical ... [T]he injury forming the basis of the
trustee’s complaint is to the corporation itself....”).
14. Baena v. KPMG, LLP, 453 F.3d 1, 6–10 (1st Cir.2006)
(trustee’s case barred by in pari delicto, but that doctrine “has
nothing to do with Article III requirements”).
15. In Official Comm. of Unsecured Creditors v. R.F.
Lafferty & Co., Inc., 267 F.3d 340, 346 (3rd Cir.2001), the Third
Circuit explained: “An analysis of standing does not include an
analysis of equitable defenses, such as in pari delicto. Whether a

16
Sixth,16 Seventh,17 Eighth,18 and Eleventh19 Circuits do not
follow the Second Circuit’s approach and have refused to
create a separate standing rule to address matters that
could be addressed by a pre-existing equitable, meritsbased defense.
The Eight Circuit recognized the split of authority
between circuits regarding the immediate issue of Article
III standing analysis, and revealed the error of the Second
Circuit and its Wagoner rule, more than ten years ago in
Senior Cottages of America, LLC, 482 F.3d 997 (8th Cir.
2007). In Senior Cottages, a bankruptcy trustee filed a
malpractice suit against third party attorneys and alleged
breach of fiduciary duty and aiding and abetting claims.
In reversing the lower courts’ decision to dismiss the
party has standing to bring claims and whether a party’s claims
are barred by an equitable defense are two separate questions,
to be addressed on their own terms.”
16. Terlecky v. Hurd (In re Dublin Securities, Inc.), 133 F.3d
377, 380 (6th Cir.1997) (considering in pari delicto defense and
declining to consider standing argument).
17. Scholes v. Lehmann, 56 F.3d 750 (7th Cir.1995).
18. Senior Cottages of America, LLC, 482 F.3d 997, 1004 (8th
Cir.2007) (“Even if an in pari delicto defense appears on the face
of the complaint, it does not deprive the trustee of constitutional
standing to assert the claim.”).
19. Official Comm. of Unsecured Creditors v. Edwards,
437 F.3d 1145, 1149–50 (11th Cir.2006)(holding that trustee had
standing, but federal claim was barred by in pari delicto and state
claim for aiding and abetting breach of fiduciary duty was not
cognizable under Georgia law), cert. denied, 549 U.S. 811 (2006);
O’Halloran v. First Union Nat’l Bank, 350 F.3d 1197, 1203–04
(11th Cir. 2003) (corporation’s trustee had standing to sue bank
for aiding and abetting embezzlement by corporate fiduciary).

17
trustee’s claims on “standing” grounds, the Eight Circuit
correctly observed:
We agree with the First, Third, Fifth, and
Eleventh Circuits that the collusion of corporate
insiders with third parties to injure the
corporation does not deprive the corporation
of standing to sue the third parties . . . . The in
pari delicto doctrine is a defense. Even if an
in pari delicto defense appears on the face of
the complaint, it does not deprive the trustee
of constitutional standing to assert the claim,
though the defense may be fatal to the claim.
Id. at 1004 (citations omitted).
The Fifth Circuit’s decision in this case muddles the
constitutional Article III standing analysis just like the
Second Circuit’s Wagoner rule does. Despite the strength
of the criticism of the Wagoner rule, this Court has never
addressed the erroneous Article III standing analysis
expressed by Second Circuit in Wagoner. Now that the
Fifth Circuit has essentially followed the Wagoner rule,
it should.
II. This Case Involves an Extremely Important
Question of Federal Law that Threatens to
Preclude Bankruptcy Trustees from Recovering
Damages from Tortfeasors Whose Conduct Causes
Direct Injury to the Bankrupt Debtor
Whether courts should consider equitable, meritsbased defenses when making a threshold, constitutional
Article III standing determination is an important

18
question of federal law that has not been, but should be,
directly addressed and settled by this Court.
The Fifth Circuit excused Cohen and his abettors
from paying damages simply because LSI’s debt to
Jabil was unpaid at the time of LSI’s bankruptcy. As
Stanley holds, that result is profoundly wrong. One of
the primary purposes of filing for bankruptcy is to avoid
further financial harm to the debtor—not to create it.
By eliminating the estate’s ability to redress an injury
it suffered as of the commencement of bankruptcy as a
result of Respondents’ tortious conduct (in the form of a
debt LSI still owed), the Fifth Circuit’s decision turns
that purpose on its head. LSI was injured by this debt at
the time bankruptcy was filed; whatever happens postbankruptcy does not eliminate this injury suffered by the
Debtor—an injury that the Trustee has the authority to
redress through a proper claim against the tortfeasors
who caused it.
And the harmful effect of the Fifth Circuit’s decision
that corporate debt is not a redressable injury extends
far beyond this case. The Fifth Circuit held that although
Respondents unlawfully drove LSI into bankruptcy “for
nefarious purposes” by incurring massive unpayable
debts that would not otherwise have existed, the company
suffered not even the slightest iota of harm necessary for
standing. That holding thereby forecloses all trustees
within the Fifth Circuit from bringing any claims
against tortfeasors who have caused injury in the form
of unpayable liabilities. Such claims have heretofore been
commonplace in bankruptcy, but will be barred according
to the formulaic rule issued by the Fifth Circuit’s decision.

19
The Fifth Circuit’s decision also undermines the
fundamental goal of holding wrongdoers liable for the
full harms they cause, even where plaintiffs have offset or
insured against losses. See Stanley v. Trinchard, 500 F.3d
411, 424 (5th Cir. 2007). Plaintiffs may generally “pursue
claims for property damage, albeit they have made no
repairs,” and sue “for medical payments when no such
payments have been made.” Id. But, according to the Fifth
Circuit’s decision, Respondents escape liability for a harm
they caused solely because, due largely to that harm, LSI
was forced into bankruptcy. Id. at 420-21. And, because
creditors will seldom be able to recover directly from
tortfeasors who breached duties owed only to the debtor,
the likely result of the Fifth Circuit’s decision will be to
insulate wrongdoers like Cohen and his abettors from
any liability at all. Indeed, Jabil did not file suit against
Respondents in this matter.
Moreover, by constitutionalizing an argument that
should be—at most—a merits-based defense to damages,
the decision frustrates judicial economy and undermines
our adversarial system of civil justice. The Fifth Circuit
decision threatens judicial economy by permitting litigants
to “cloak routine cause-of-action questions in Article III
garb,”20 and rewards litigants who, whether as a deliberate
litigation strategy or through mere negligence, fail to
raise such equitable defense timely.
Review by this Court is also warranted because the
issue is exceptionally important to bankruptcy trustees.
Bankruptcy estates often consist largely of claims against
20. 13 Charles Alan Wright et al., Federal Practice and
Procedure § 3531 (2006 Supp.).

20
directors, officers, and others whose wrongdoing caused
the debtor to accumulate unpayable debts or other liability
and become bankrupt. See, e.g., Russell C. Silberglied,
Litigating Fiduciary Duty Claims in Bankruptcy Court
and Beyond: Theory and Practical Considerations in
an Evolving Environment, 10 J. Bus. & Tech. L. 181,
181 (2015) (“Litigation against directors and officers
is ubiquitous in bankruptcy courts.”). By holding that
the only cognizable injury in such circumstances is to
creditors—who generally have no cause of action against
defendants who owe no legal duties to them—the Fifth
Circuit’s decision forbids recovery in a vast array of
cases that, until now, have been “standard bankruptcy
litigation.” Id. The result is a windfall to tortfeasors at
the expense of debtors, creditors, and the bankruptcy
system itself.
III. The Fifth Circuit’s Decision has so Far Departed
from the Accepted and Usual Course of Judicial
Proceedings that an Exercise of this Court’s
Supervisory Power is Warranted and Summary
Reversal May Be Appropriate
The Fifth Circuit’s decision below is woefully
incomplete and clearly wrong. The Fifth Circuit did not
address several important, substantive legal issues that
were raised and fully briefed by the parties on appeal,
namely: (a) Why was the jury’s verdict against DeJoria
for $1.5 million (and the related award against him for
$1 million in punitive damages) vacated?; and (b) Are
DeJoria, Appel, and Bartlett jointly and severally liable
with Cohen for the $400,000 award that the Fifth Circuit
affirmed? These are real issues that the Fifth Circuit
simply did not address.

21
DeJoria 21 became a director of LSI in October 2011
and, as supported by ample record evidence and the
jury’s verdict, he breached his fiduciary duty to LSI by
refusing to take action against Cohen, Appel, and Bartlett
(his co-abettors) while he was a director. “[W]e have
been attempting to circle the wagons on Howard [Appel]
since day one,” wrote the C.E.O. of LSI, “but John Paul
[DeJoria] has thwarted us on every single occasion.” (Pl.
Ex. 318; Wohler trial testimony). 22 By missing or refusing
to address this portion of the jury’s award, the Fifth
Circuit’s review is inexplicably incomplete.
21. John Paul DeJoria is a celebrity business personality
with a reported net worth of more than $3 billion. DeJoria is best
known for being the co-founder and owner of the Paul Mitchell
studios and the former owner of Patron Spirits Company (Patron
Tequila), among other businesses. Through common investments
and business dealings, DeJoria knew Appel and Bartlett for many
years prior to LSI. When DeJoria’s due-diligence team warned
him that Appel and Bartlett were “scammers of the worst order”
(Pl.Ex. 309; Wohler trial testimony) around the time of DeJoria’s
initial investment in LSI, DeJoria vouched for the character of
Appel and Bartlett and considered them “nice guys.” (Pl.Ex. 317;
Wohler trial testimony).
22. Howard Appel has a long, sordid history of securities
fraud and stock manipulation. After being fined and stripped of
his NASD license for alleged stock manipulation in 1991, in 2004
he was charged criminally with conspiracy to commit securities
fraud and money laundering; Appel ultimately plead guilty to
both counts and received two one year and one day (concurrent)
sentences which he served in 2008 to 2009—right before his
initial involvement with LSI. Very recently, and subsequent to
his involvement with LSI, Appel pleaded guilty to charges that
he conspired with two associates to “secretly gain control of
large blocks of publicly-traded microcap stocks” using “nominee
accounts” designed to “artificially inflate the price of the stock.”
¶¶18-36, U.S. v. Appel, 2:18-cr-00321-PD (E.D. Pa. July 27, 2018).

22
Moreover, given that the Fifth Circuit affirmed the
$400,000 award against Cohen (App. A, pp. 12a-16a), as
a matter of Texas law, DeJoria, Appel, and Bartlett are
jointly and severally liable with Cohen as his aiders and
abettors. Although the Trustee raised and briefed this
issue on appeal (and on rehearing), the Fifth Circuit does
not address this important issue in any way. This is not
normal or acceptable practice by an appellate court.
Similarly, the Fifth Circuit’s reasoning and analysis
in support of its ruling that LSI’s corporate debt cannot
be considered an “injury-in-fact” to the Debtor does not
withstand the slightest scrutiny. The Fifth Circuit reached
its erroneous conclusion by misapprehending the two
lower-court cases on which it relied. In In re Waterford
Wedgewood USA, Inc., 529 B.R. 599 (Bankr. S.D.N.Y.
2015), the trustee alleged that, because of malpractice by
its retirement plan’s auditor, the debtor underfunded that
plan. Id. at 600-01, 604-05. Because the money was owed to
the plan regardless of that malpractice, the alleged injury
was the debtor’s underpayment, rather than the creation
of the debt itself. Id. at 605. Thus, Waterford merely held
that the underpayment harmed the plan, not the debtor,
since the debtor retained use of its money while owing no
more than what it previously owed. Id. 23 But that principle
has no application here, since—as even the Fifth Circuit
observed—Cohen “nefarious[ly]” caused LSI to assume a
massive debt in exchange for machinery for which it had
no profitable use. App. A, pp. 8a-12a. 24
23. See also, In re Am. Tissue, Inc. v. Donaldson, 351 F.
Supp. 2d 79, 93-94 (S.D.N.Y. 2004) (“equity infusion” caused no
corporate injury, but taking on “unfavorable” debt would have).
24. The Fifth Circuit incorrectly hypothesized that “LSI
gained even more than the debtor in Waterford because it

23
The only other case the Court relied on, Reneker v.
Offill, 2009 WL 804134 (N.D. Tex. Mar. 26, 2009), is an
unpublished district court decision that undermines the
Fifth Circuit’s conclusion. There, a receiver sued the
debtors’ attorneys, alleging negligence and fiduciary
breaches. Id. at *5-6. Unlike here, the receiver did not seek
the amount of the debtors’ increased liabilities; instead,
it sought “the difference between the amount owed to
[creditors] and the amount of any [creditor recovery] from
the assets of the [receivership],” irrespective of whether
that difference was attributable to the defendants’
wrongdoing. Id. at *6. The court held the claimed injury—
the creditors’ shortfall after they had recovered from the
receivership—was suffered only by creditors. Id. But
the court also made clear the result would be different
if the receiver had instead sought (as the Trustee did
here) the amounts by which the defendants’ wrongdoing
had “increased the [debtors’] liability to third parties or
caused the [debtors] to be liable to third parties when they
otherwise would not have been.” Id. at *6 n.5. Accordingly,
benefitted from not paying Jabil’s invoice and retained and then
sold the manufacturing equipment.” App. A, p. 10a. But if LSI
obtained any salvage value in the deal, that value was properly
reflected in the jury’s award of only $6,500,000 in damages, rather
than the full $9,550,000. Furthermore, although the Fifth Circuit
erroneously assumes that LSI received equipment from Jabil
that was of reasonably equivalent value to the contractual price
established by the Jabil deal, the actual Jabil equipment obtained
by LSI was essentially worthless. In fact and as the record
supports (see, e.g., Expert McBroom trial testimony), the jury
accepted the Trustee’s expert testimony that the Jabil equipment
did not work and was of no use to LSI. Indeed, after LSI paid
Jabil a considerable amount of money for worthless equipment,
the Trustee eventually was forced to sell the very expensive Jabil
water remediation units for scrap metal.

24
after the receiver amended its complaint to seek such
damages, the court squarely held that such a claim stated
cognizable injury. Reneker v. Offill, 2009 WL 3365616,
at *3 (N.D. Tex. Oct. 20, 2009) (“[A]llegations that [the
defendant’s] negligence ‘increased the [debtors’] liability
to third parties or caused the [debtors] to be liable to
third parties when they otherwise would not have been’
are sufficient to allege an injury that is concrete, actual,
and distinct from the [third party’s] injury.”). The Fifth
Circuit only cites and relies upon the first Reneker decision
issued in March 2009; had the Fifth Circuit read and
considered the second Reneker decision issued in October
2009, perhaps it would have caught and corrected its
erroneous ruling.
This case is a perfect example of the “drastic
consequences” that result from a court considering
equitable defenses as being jurisdictional in nature
and erroneously attaching the “standing” label to them
when making a threshold Article III determination. By
allowing Respondents to disguise their equitable defenses
in “standing” garb for the first time after trial, the Fifth
Circuit stripped the Trustee here—and potentially
many future Trustees—of any meaningful retort or
recovery from fraudulent corporate actors who misuse
a corporation for “nefarious” purposes. For all of the
foregoing reasons, and on the relative weakness of the
Fifth Circuit’s decision and strength of her Petition, the
Trustee respectfully prays that this Court summarily
reverse the Fifth Circuit’s decision and reinstate and
affirm the jury’s verdict and Judgment of the district
court. App. B.

25
CONCLUSION
For the foregoing reasons, this Court should grant
certiorari and reverse the Fifth Circuit’s decision.
Respectfully submitted,
J. E. Cullens, Jr.
Counsel of Record
Walters, Papillion, Thomas, Cullens, LLC
12345 Perkins Road, Building One
Baton Rouge, LA 70810
(225) 236-3636
cullens@lawbr.net
Counsel for Petitioner

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE FIFTH
CIRCUIT, FILED APRIL 30, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-10382
In the Matter of:
LATITUDE SOLUTIONS, INCORPORATED,
Debtor.
CAREY D. EBERT,
Appellee,
v.
JOHN PAUL DEJORIA; HOWARD MILLER APPEL;
EARNEST A. BARTLETT, III;
MATTHEW J. COHEN,
Appellants.
April 30, 2019, Filed
Appeals from the United States District Court
for the Northern District of Texas
Before BARKSDALE, SOUTHWICK, and HAYNES,
Circuit Judges.

2a
Appendix A
HAYNES, Circuit Judge:
This appeal involves two competing versions of the
history and purpose of Latitude Solutions, Inc. (“LSI”).
Howard Appel, Earnest Bartlett, Matthew Cohen, and
John Paul DeJoria (“Appellants”) characterize LSI as a
publicly traded company which sought to commercialize
technology that could remediate contaminated water
but was unsuccessful as a speculative venture. On the
other hand, LSI’s bankruptcy trustee, Carey Ebert,
characterizes LSI as a fraud from its inception—used
only as a mechanism for Appellants to participate in and
profit from a securities fraud scheme. Ebert sued several
of LSI’s corporate officers, directors, and investors for
breaches of fiduciary duty. By the end of trial, her case
focused primarily on a contract LSI entered into with
Jabil Inc., one of LSI’s bankruptcy creditors. The jury
found Appellants liable and assessed millions of dollars
in compensatory and exemplary damages. Appellants
present various arguments for why we should overturn
the jury verdict and reduce damages, including whether
Ebert has Article III standing and whether there was
legally sufficient evidence for the jury to find as it did.
We AFFIRM in part, REVERSE and RENDER in part,
VACATE in part, and REMAND for further consideration
consistent with this opinion.1
1. As explained more fully below, we reverse and render
judgment in favor of Appel, Bartlett, and DeJoria. As for Cohen,
we vacate damages awarded under Damage Element No. 1, affirm
damages awarded under Damage Element No. 2, and remand
to the district court to consider the legal issues surrounding
exemplary damages against Cohen in the first instance.

3a
Appendix A
I.

Background

This appeal stems from a jury verdict and final
judgment adjudicating Matthew Cohen and John Paul
DeJoria liable for breaches of fiduciary duty to LSI and
finding Howard Appel and Earnest Bartlett liable for
aiding and abetting those breaches. The final judgment
awards Ebert compensatory damages against (i) Appel,
Bartlett, Cohen, and DeJoria for $6.9 million, jointly and
severally, for Cohen’s breach of fiduciary duty; (ii) Appel
and Bartlett for $2.5 million each for aiding and abetting
Cohen’s breach of fiduciary duty; (iii) DeJoria for $1.5
million for his breach of fiduciary duty; and (iv) Appel for
$5 million, Cohen for $2 million, and DeJoria for $1 million
in exemplary damages.
A.

LSI

The parties disagree on the basic premise of LSI’s
formation. Ebert asserts LSI was a sham company set
up to fail from the outset, and a vehicle for Appellants
to participate in a securities fraud scheme known as
“pump-and-dump,” while Appellants claim LSI was
legitimately founded to develop and commercialize
technology capable of remediating contaminated water.
LSI was a publicly traded company that began operating
in 2009 and developed patented technology for treatment
of wastewater in the oil and gas industry. LSI was a
speculative venture that eventually filed for bankruptcy
in November 2012. 2
2. Aside from the allegations regarding each Appellant’s
conduct, which are discussed below, LSI experienced internal
control and accounting issues. For example, its financial team used

4a
Appendix A
B. Matthew Cohen
Cohen was one of the founding members of LSI and
served as an officer and director of LSI from March 2009
through June 2012. Cohen was the Chief Financial Officer
of LSI from June 2011 to June 2012.
C.

Howard Appel

Appel was a business consultant to and raised
capital for LSI. In 2004, before LSI existed, Appel pled
guilty to conspiracy to commit securities fraud as well
as conspiracy to commit money laundering and served
twenty-one months in prison. The parties vehemently
disagree whether this is relevant to LSI. The trustee uses
Appel’s conviction as evidence of a pattern of nefarious
behavior, while Appellants argue Appel’s past is the only
reason for the trustee’s lawsuit, despite no evidence that
Appel engaged in any criminal conduct related to LSI. An
LSI board member introduced Appel to the company in
2010, which eventually led to Appel’s family and friends
investing in LSI beginning in February 2011. Appel was
responsible for raising at least $12 million in capital for
LSI through outside investors. Appel did not purchase or
sell any shares of LSI stock.
D.

Earnest Bartlett

Bartlett is a friend and business associate of Appel.
Appel introduced Bartlett to LSI. A company affiliated
accounting software that was inadequate for a publicly traded
company and eventually self-reported to the Department of Justice
on suspicions of fraud and stock manipulation.

5a
Appendix A
with Bartlett, FEQ Realty, invested in LSI beginning
in December 2010. In April 2011, FEQ Realty entered
into a consulting agreement with LSI. Appel provided
his consulting services to LSI as an outside consultant
under FEQ Realty’s consulting agreement. Bartlett never
purchased or sold any LSI stock.
E. John Paul DeJoria
DeJoria is an entrepreneur and philanthropist with an
interest in developing clean-water solutions. He invested
and lost over $11 million in LSI beginning in March 2011.
For most of 2012, DeJoria was LSI’s primary source of
funding. DeJoria served on LSI’s board of directors from
October 2011 to September 2012.
F.

Jabil, Inc.

Jabil, Inc., is not a party to the case but plays a crucial
role here. In May 2011, Jabil entered into an agreement
with LSI to manufacture remediation equipment. The
parties dispute whether the deal was done for legitimate
purposes. Jabil is a creditor in LSI’s bankruptcy, with a
claim for $9.55 million. By the end of evidence at trial,
the trustee conceded the only damages the estate could
recover were 1) the amount of the Jabil debt and 2) the
amount of any gains to the defendants that the trustee
could specifically link to fiduciary breaches.

6a
Appendix A
G. LSI’s Bankruptcy and the District Court
Proceedings
Carey Ebert was appointed as LSI’s Chapter 7
bankruptcy trustee, and the matter was eventually
converted into a Chapter 11 proceeding. As the Chapter
11 trustee, she attempted to find investors to invest in
LSI and lease equipment to keep LSI operating. Ebert,
however, was unable to generate enough revenue to
allow the company to resume business. Ebert filed the
operative complaint in November 2015, raising various
claims against over twenty defendants. With respect to
the Appellants, Ebert alleged that Appel gained practical
control of LSI and used it to perpetrate securities fraud
and engage in insider trading; that LSI was a fraud formed
for an illegitimate purpose; that Appel and Bartlett made
substantial profit through manipulative conduct; and that
Cohen and DeJoria joined in the conspiracy to profit from
stock manipulation.
By the close of evidence at trial, the lawsuit had
narrowed significantly—numerous counts and more than
a dozen defendants were dismissed. The claims that went
to the jury were one count each of a breach of fiduciary
duty owed to LSI against Cohen and DeJoria, and one
count of aiding and abetting Cohen’s breach of fiduciary
duty against DeJoria, Appel, and Bartlett. As noted above,
based upon the evidence presented, the only damages
remaining at issue were 1) the amount of the Jabil debt
and 2) the amount of any gains to the defendants that the
trustee could specifically link to fiduciary breaches.

7a
Appendix A
Appellants moved for judgment as a matter of law
under Federal Rule of Civil Procedure 50(a) and the
district court carried the motions. The district court then
held a charge conference, at which the parties agreed to
the following: Question 1 would determine whether Cohen
and DeJoria breached their fiduciary duties with a “yes”
or “no” answer. Question 2 would determine whether
Appel, Bartlett, and DeJoria aided and abetted3 Cohen’s
breach of fiduciary duty. Question 3 limited the trustee’s
damages to the following:
Damage Element No. 1: The reasonable cash
market value of liabilities incurred by LSI as
a proximate cause of that defendant’s breach of
fiduciary duty, which liabilities are still owed
and have not yet been paid, if any.
Damage Element No. 2: The reasonable market
value of any gains to that defendant (including
salaries, consulting fees, net proceeds from
stock issuances to directors and/or officers of
LSI, and other expenses) proximately caused
by that defendant’s breach of fiduciary duty.
Questions 4 and 5 would determine eligibility for and
quantify exemplary damages. The jury found Cohen and
DeJoria each committed a breach of fiduciary duty and
Appel, Bartlett, and DeJoria aided and abetted Cohen’s
breach. The jury assessed damages as follows:
3. Because of our conclusions below, we do not reach the issues
surrounding whether “aiding and abetting” a breach of fiduciary
duty was a proper jury submission in this case.

8a
Appendix A
Defendant Damage Element
No. 1
Appel
$0
Bartlett
$0
Cohen
$6.5 million
DeJoria
$1.5 million

Damage Element
No. 2
$2.5 million
$2.5 million
$400,000
$0

The jury also assessed exemplary damages of $5 million
against Appel, $2 million against Cohen, and $1 million
against DeJoria. Following the jury verdict, all four
Appellants renewed their motions for judgment as a
matter of law. The district court denied their motions,
granted Ebert’s motion for judgment, and later denied
motions for reconsideration. This timely appeal followed.
II. Discussion
A.

Ebert Lacks Article III Standing to Recover
Jabil’s Damages

Appellants argue that Ebert lacks Article III standing
to recover Jabil’s damages under Damage Element No. 1
of the jury charge. Article III standing requires a plaintiff
to have “suffered an ‘injury in fact,’” show “a causal
connection” between the injury and the conduct at issue,
and the injury must be redressable by the court. Lujan v.
Defenders of Wildlife, 504 U.S. 555, 560, 112 S. Ct. 2130,
119 L. Ed. 2d 351 (1992). “[A] plaintiff must demonstrate
standing for each claim [s]he seeks to press” and have
“standing separately for each form of relief sought.”
DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 352, 126
S. Ct. 1854, 164 L. Ed. 2d 589 (2006) (citation omitted).

9a
Appendix A
Ebert’s liability theory with respect to Cohen and
DeJoria’s breaches of fiduciary duty focused on Jabil.4
In her closing argument, she claimed “the fraud, the
improper conduct, was entering into the Jabil contract
in May 2011 . . . that’s what caused the damages.” Ebert
argued Jabil was misled because they “weren’t given
access to [LSI’s] books,” and were unaware of Appel’s
involvement or prior criminal history. As for damages,
Ebert consistently asserted that she was seeking the
amount of the Jabil debt, stating that “we know Jabil lost
9.5 million” and asked the jury to “forget about the other
hundred and something creditors . . . focus on Jabil.”
Under Damage Element No. 1, the jury was asked
to assess “the reasonable cash market value of liabilities
incurred by LSI as a proximate cause of that defendant’s
breach of fiduciary duty, which liabilities are still owed
and have not yet been paid, if any.” But the millions of
dollars awarded under Damage Element No. 1 represent
Jabil’s injury, not LSI’s. Jabil manufactured and delivered
the contractually agreed upon equipment to LSI. LSI
benefitted from the equipment, and Ebert even leased and
sold the equipment in Chapter 11 proceedings. Moreover,
LSI did not pay the invoices on the equipment. Therefore,
LSI benefitted and even had cash available for other needs.

4. We note one additional point relevant only to DeJoria:
DeJoria did not become a director at LSI until October 2011,
some five months after LSI entered into the Jabil contract. Ebert
provided no evidence that DeJoria should be liable for the damages
incurred by action that predated his time as an LSI director.

10a
Appendix A
Although we have not squarely addressed Article III
standing under the circumstances presented in this case,
Appellants note several persuasive authorities holding
there was no Article III standing in factually analogous
scenarios. In In re Waterford Wedgwood USA, Inc., 529
B.R. 599 (Bankr. S.D.N.Y. 2015), the debtor “failed to
contribute the full amount it owed” to a retirement plan
it sponsored. Id. at 601. The debtor hired an accounting
firm to audit the retirement plan, but the firm failed to
notify the debtor about the underfunding. Id. at 601. The
bankruptcy trustee for the debtor sued the firm for unpaid
liabilities to the retirement plan. Waterford held that the
bankruptcy trustee lacked Article III standing because
the debtor had not suffered an injury. Id. at 604-05. The
court reasoned that “the trustee alleges damages to the
debtors, to the extent of the unpaid obligations of the
debtors to the creditors . . . [but] the Debtor appears to
have benefitted from not paying the required Retirement
Plan contributions by gaining the use of funds that should
have been in the Retirement Plan’s possession.” Id. at
605 (citing In re Am. Tissue, Inc., 351 F. Supp.2d 79,
93-94 (S.D.N.Y. 2004) (holding that a debtor could not
characterize its monetary gain as injury)). The Waterford
Court went on to state that the trustee could “allege a
constitutional injury. . . if the bankruptcy estate paid any
of the shortfall.” Id. at 605. Waterford shares the factual
circumstances of this case—a bankruptcy trustee sued
and argued a debt it owes constitutes an injury, despite
having made no payments. In fact, LSI gained even more
than the debtor in Waterford because it benefitted from
not paying Jabil’s invoice and retained and then sold the
manufacturing equipment.

11a
Appendix A
In Reneker v. Offill, 2009 U.S. Dist. LEXIS 24567,
2009 WL 804134 (N.D. Tex. Mar. 26, 2009), a receiver for
various entities sued the entities’ attorneys for negligence,
violations of securities laws, and the consequent $36.5
million liability owed to investors. 2009 U.S. Dist. LEXIS
24567, [WL] at *5. Citing In re American Tissue, the
Reneker Court held the receiver lacked Article III standing
because “the only harm alleged is the Receivership
Estate’s inability to satisfy its liabilities.” 2009 U.S. Dist.
LEXIS 24567, [WL] at *6. The court held the receiver did
not have Article III standing to sue for damages his clients
did not suffer, stating “[t]he Receivership Estate’s financial
inability to satisfy liabilities owed to investors as a result
of securities-laws violations harm[ed] the investors,”
not the receiver. Id. Reneker is also analogous to LSI’s
case; the receiver and bankruptcy trustee are similarly
situated, while Appellants are similarly situated to the
attorneys accused of negligence. Jabil and the investors
in Reneker are both creditors. In addition, the securities
laws violations are analogous to the Jabil contract as the
event the receiver and trustee argue caused damages.
Based on the triggering events, Ebert and the receiver
attempted to recover damages owed because of fraudulent
or negligent conduct.
Ebert responds that LSI suffered harm by taking
on millions of dollars in debt. She analogizes to Norris v.
Causey, 869 F.3d 360 (5th Cir. 2017), to argue for standing.
We held in Norris that “[t]he Norrises’ injury is clear: they
lost thousands of dollars.” Id. at 366. However, Norris is
distinguishable; the Norrises wrote checks for $48,000,
$45,000, and $1,000, but the Causeys never moved forward

12a
Appendix A
with their end of the bargain. Id. at 364. Here, LSI did
not pay Jabil’s invoice but still retained Jabil’s end of the
bargain, the manufacturing equipment. Ebert also cites
Norris for the proposition that “this litigation can redress
the loss through damages, as the judgment demonstrates.”
Id. at 366. But this argument refers to redressability, not
LSI’s injury in fact, and is thus inapposite. 5 Accordingly,
all damages awarded under Damage Element No. 1
against any defendant must be reversed for lack of Article
III standing (thus leaving no actual damages against
DeJoria).6
B. A Reasonable Jury Could Find Cohen Liable
for Breach of Fiduciary Duty Owed to LSI
Cohen argues7 that he is entitled to judgment as
a matter of law because there is not legally sufficient
5. In its order denying Appellants’ post-verdict motions, the
district court held there was sufficient evidence to support a jury
finding that Appellants’ breaches of fiduciary duty caused the
damages the jury awarded, citing Jabil’s proof of claim filed in
bankruptcy court and the trial testimony of Jabil representatives.
But this rationale only addresses what Jabil’s injury and damages
were; it does not explain how LSI was injured.
6. We need not address and therefore do not hold that there
could not possibly be an Article III injury in fact stemming from
Cohen and DeJoria’s breaches of fiduciary duty. Instead, we hold
there is no Article III injury stemming from the claims Ebert
asserted and Damage Element No. 1 of the jury instruction.
7. Ebert argues Cohen has waived this argument but is
mistaken; Cohen raised this issue during Rule 50(a) arguments
and in his Rule 50(b) motion, as the district court noted.

13a
Appendix A
evidence to prove he breached his fiduciary duty to
LSI. “We review a district court’s ruling on a motion for
judgment as a matter of law de novo.” Nobach v. Woodland
Vill. Nursing Ctr., Inc., 799 F.3d 374, 377 (5th Cir. 2015)
(footnote and citation omitted). When reviewing a district
court’s denial of a post-verdict Rule 50(b) motion, we
assess “whether a reasonable jury would not have a legally
sufficient evidentiary basis to find for the party on that
issue.” Id. (quoting Fed. R. Civ. P. 50(a)(1)). Despite our
holding in Section II.A, we address this issue because it
concerns damages awarded under Damage Element No. 2.
Texas law required Ebert to prove: 1) that a fiduciary
relationship existed; 2) that Cohen breached his fiduciary
duty to LSI; and 3) that Cohen’s breach resulted in injury
to LSI or benefitted him. Navigant Consulting, Inc. v.
Wilkinson, 508 F.3d 277, 283 (5th Cir. 2007). The first
element is not in dispute. Cohen’s fiduciary duty required
a duty of loyalty and duty of care to LSI.
As noted above, Ebert’s case began by alleging an
elaborate pump-and-dump scheme of LSI’s stock and
widescale fraud, but by the time the case was submitted
to the jury, Ebert’s argument was based entirely on the
Jabil contract:
the fraud, the improper conduct, was entering
into the Jabil contract in May 2011. That’s what
inevitably caused this company to collapse,
that’s what caused the damages, and that was
the impetus of why or purpose of this fraudulent
scheme was to enter into that Jabil contract,

14a
Appendix A
make a big splash, make it seem like this was
a legitimate business when it had no hope for
survival.
Ebert provided the following evidence to support her
claim: Cohen took on Appel as an advisor and spoke to
him daily; Cohen sent Appel non-public information,
including lists of shareholders and stock sales on a weekly
basis; Cohen dealt personally with Jabil; prior to the Jabil
contract, Cohen had not told anyone at Jabil about Appel’s
conviction for securities fraud manipulation; LSI had no
idea whether the machinery from the Jabil contract would
work; LSI had no business plan, or leads to monetize the
equipment from the contract, but Cohen and Appel drafted
LSI press releases together to generate good news and
publicize it; and while still a director, Cohen sold his stock
in LSI for $400,000 because he “needed to have some
money in the bank.”
Cohen contends that his conduct is protected by the
business judgment rule. In Texas, the “rule . . . protects
corporate officers and directors, who owe fiduciary
duties to [a] corporation[] from liability for acts that are
within the honest exercise of their business judgment
and decision.” Sneed v. Webre, 465 S.W.3d 169, 173 (Tex.
2015) (citation omitted). Negligent, unwise, inexpedient,
or imprudent actions are protected so long as “the actions
[are] ‘within the exercise of their discretion and judgment
in the development or prosecution of the enterprise in
which their interests are involved.’” Id. at 178 (quoting
Cates v. Sparkman, 73 Tex. 619, 11 S.W. 846, 849 (Tex.
1889)) (footnote omitted). The jury charge, however,

15a
Appendix A
instructed the jury on both what is required to show a
breach of fiduciary duty, along with the parameters of
the business judgment rule. Given Cohen’s actions, a
reasonable jury could weigh the evidence, consider the
business judgment rule, but conclude that Cohen breached
his fiduciary duty to LSI.
Cohen also argues that because the existence of
an attempted pump-and-dump securities fraud scheme
would not be clear to a jury, Ebert was required to offer
expert testimony supporting her claim. However, the case
he cites, Fener v. Operating Engineers Construction
Industry & Miscellaneous Pension Fund (LOCAL 66),
579 F.3d 401, 409 (5th Cir. 2009), stands for a different
proposition: that proving a loss causation claim under
§ 10(b) of the Securities Exchange Act of 1934 requires
“the testimony of an expert—along with some kind of
analytical research or event study.” Id. No such claim
exists here. Even if we were to apply Cohen’s standard,
Ebert did put on an expert who testified extensively about
red flags of a pump-and-dump scheme in the securities
industry and how LSI demonstrated a number of those
traits. We therefore reject this argument.
The jury assessed damages of $400,000 against Cohen
under Damage Element No. 2. Cohen argues there is no
evidentiary support for this monetary amount. But Cohen
himself testified that he made $557,109 in salary for his
time at LSI and sold about $400,000 of LSI stock because
he “needed to have some money in the bank.” None of
Appellants’ lawyers objected during this testimony.
Damage Element No. 2 allowed for damages from “the

16a
Appendix A
reasonable market value of any gains to that defendant
(including salaries, consulting fees, net proceeds from
stock issuances to directors and/or officers of LSI . . . )
proximately caused by that defendant’s breach of fiduciary
duty.”
Considering the jury found Cohen liable for a breach
of fiduciary duty based on an alleged pump-and-dump
scheme and improperly propping up LSI by entering the
Jabil contract for nefarious purposes, there is legally
sufficient evidence for a reasonable jury to award $400,000
in damages.
C.

Ebert Did Not Provide Legally Sufficient
Evidence to Show Appel and Bartlett Personally
Received Gains from Stock Sales

Appel and Bartlett were not liable for damages under
Damage Element No. 1. On the other hand, the jury found
Appel and Bartlett liable for $2.5 million each under
Damage Element No. 2 for aiding and abetting Cohen’s
breach of fiduciary duty, which allowed the jury to award
damages for the “reasonable market value of any gains
to that defendant (including salaries, consulting fees, net
proceeds from stock issuances to directors and/or officers
of LSI, and other expenses) proximately caused by that
defendant’s breach of fiduciary duty.”
Appel and Bartlett argue that Ebert presented no
evidence they received gains from stock sales in their
individual capacity and that any evidence instead relates
to entities affiliated with them. Ebert cites the expert

17a
Appendix A
testimony of Robert Manz as the “critical evidence” to
support Appel and Bartlett’s damages calculation. Manz
testified that a “nominee company” is one that “stands in
the place of a person or another company,” and is often
used to “hide the identity of a person or another entity.”
Manz also testified that Appel owned more than 5% of
LSI’s outstanding stock through nominee companies, that
Bartlett owned another 1.5% of LSI through nominee
companies, that Appel, Bartlett, and their associates
earned a total of $5.1 million of profit from LSI stock,
and that FEQ Realty made $2.3 million in profit from LSI
stock. In its denial of Appellants’ post-verdict motions,
the district court cited Manz’s testimony to uphold the
jury’s verdict.
Through Manz’s testimony, however, Ebert tacitly
admits that she provided evidence only for the nominee
companies’ gains, not for Appel and Bartlett in their
individual capacity. Manz’s calculations were based
primarily on two documents: Schedule 7.B, which showed
market sales of LSI stock, and a list of nominee companies
with how many shares of LSI each owned as of September
9, 2011. Yet these documents only list companies and
provide no proof of or insight into Appel and Bartlett as
individuals. Ebert originally named a number of these
entities as defendants in her lawsuit, including FEQ
Realty, LLC, DIT Equity Holdings, Capital Growth
Realty, and Wiltomo Redemption Foundation. But she
eventually dismissed them with prejudice. Perhaps most
significantly, Manz testified that “I don’t know exactly
what you define as the Appel Group” and acknowledged
that he had no insight on whether or how a company was

18a
Appendix A
related to Appel. Instead, Ebert’s counsel simply informed
Manz “what constituted Appel-related companies” for
the document. Manz was also unable to answer questions
about the various entities in his documents and testified
that he had not tracked down the alleged gains to Appel
and Bartlett individually.
Because Ebert did not provide evidence against Appel
and Bartlett in their individual capacities and the entities
and companies in question were dismissed with prejudice,
the only way Appel and Bartlett could be liable is under an
alter ego theory. Ebert, however, made no attempt to make
such a showing. On appeal, she argues that a jury could
impose damages based on Appel and Bartlett’s nominee
companies because “a party cannot invoke the corporate
form ‘as a cloak for fraud or illegality or to work an
injustice,’” citing Matthews Construction Company, Inc.
v. Rosen, 796 S.W.2d 692, 693 (Tex. 1990). However, even
if we assumed the most generous reading of her corporate
form arguments under Texas law, cf. Texas Business
Organizations Code § 21.223, she provided no evidence to
support piercing the corporate veil or any alter ego theory.
Thus, Ebert did not provide legally sufficient evidence
for a reasonable jury to find Appel and Bartlett liable
in their individual capacities. We therefore REVERSE
the damages against Appel and Bartlett under Damage
Element No. 2, leaving no actual damages against them.
D.

Exemplary Damages

No exemplary damages were awarded against Bartlett.
In light of our holding leaving no actual damages against

19a
Appendix A
Appel and DeJoria, the judgment awarding exemplary
damages against them must be vacated. Tex. Civ. Prac.
& Rem. Code 41.004(a) (requiring more than nominal
damages to be awarded before exemplary damages can be
awarded). Therefore, the only remaining actual damages
are the $400,000 awarded against Cohen under Damage
Element No. 2. In addition to the damages cap under
Texas law (Tex. Civ. Prac. & Rem. Code § 41.008(b)),
the jury was instructed to consider “the character of the
conduct involved” and “the nature of the wrong” before
assessing exemplary damages. 8 But because portions
of the “conduct” and “wrong” are no longer viable as a
matter of law, the jury may have awarded a different
amount of exemplary damage against Cohen than the $2
million it awarded. Neither party has briefed the effect
of this potential outcome on the exemplary damages
awarded against Cohen. We conclude that this issue
should be addressed in the first instance by the district
court following full briefing. We therefore VACATE the
exemplary damages award and REMAND to the district
court to consider the legal issues surrounding exemplary
damages against Cohen in the first instance.

8. Texas law requires that the trier of fact “consider the
definition and purpose of exemplary damages as provided by
Section 41.001” in making an award of exemplary damages. Tex.
Civ. Prac. & Rem. Code § 41.010. It further requires that the trier
of fact consider evidence relating to, among other things, the
“nature of the wrong” and the “character of the conduct involved.”
Id. at § 41.011.

20a
Appendix A
III.

Conclusion

In light of the foregoing decision, Appel, Bartlett,
and DeJoria are entitled to judgment rendered in their
favor: (1) DeJoria, because of the lack of proof of a
recoverable injury, see Lindley v. McKnight, 349 S.W.3d
113, 124 (Tex. App.—Fort Worth 2011, no pet.) and the
corresponding vacatur of exemplary damages; (2) Appel,
because there was no evidence of individual liability and
the corresponding vacatur of exemplary damages; and
(3) Bartlett, because there was no evidence of individual
liability. Thus, we REVERSE and RENDER judgment
in favor of Appel, Bartlett, and DeJoria. As for Cohen, we
VACATE damages awarded under Damage Element No.
1, AFFIRM damages awarded under Damage Element
No. 2, and REMAND to the district court to consider how
our opinion impacts the award of exemplary damages.

21a
Appendix
B
Appendix b — FINAL
JUDGMENT
of the
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF TEXAS, FORT WORTH
DIVISION, filed march 7, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
Civil Action No.: 4:15-cv-225-0
CAREY D. EBERT,
Plaintiff,
v.
HOWARD MILLER APPEL, et al.,
Defendants.
FINAL JUDGMENT
Plaintiff, Carey D. Ebert (“Carey Ebert”), as
Trustee for the Chapter 11 estate of the Debtor, Latitude
Solutions, Inc. (“LSI”), sued Defendants Howard Appel,
Ernest Bartlett, Matthew Cohen, and John Paul DeJoria
(collectively “Defendants”), for, inter alia, breach of
fiduciary duty and aiding and abetting breach of fiduciary
duty. The case was tried to a jury, and after hearing
several days of testimony and argument, the jury returned
a unanimous verdict of favor of the Trustee and against
Defendants. Having considered the jury’s verdict, the
evidence presented at trial, and the applicable law, the

22a
Appendix B
Court renders judgment pursuant to Federal Rule of Civil
Procedure 58 as follows:
1. IT IS HEREBY ORDERED that Defendant John
Paul DeJoria is liable to Plaintiff Carey Ebert for breach
of fiduciary duty.
2. IT IS FURTHER ORDERED that Defendant
Matthew Cohen is liable to Plaintiff Carey Ebert for
breach of fiduciary duty.
3. IT IS FURTHER ORDERED that Defendants
Howard Appel, Ernest Bartlett, and John Paul DeJoria
are each liable to Plaintiff Carey Ebert for aiding and
abetting Matthew Cohen’s breach of fiduciary duty.
4. IT IS FURTHER ORDERED that Defendants
Matthew Cohen, Howard Appel, Ernest Bartlett, and John
Paul DeJoria are liable to Plaintiff Carey Ebert, jointly
and severally, for compensatory damages in the amount
of $6,900,000.00.
5. IT IS FURTHER ORDERED that Defendant
John Paul DeJoria is liable to Plaintiff Carey Ebert for
compensatory damages in the amount of $1,500,000.00.
6. IT IS FURTHER ORDERED that Defendant
Howard Appel is liable to Plaintiff Carey Ebert for
compensatory damages in the amount of $2,500,000.00.
7. IT IS FURTHER ORDERED that Defendant
Ernest Bartlett is liable to Plaintiff Carey Ebert for
compensatory damages in the amount of $2,500,000.00.

23a
Appendix B
8. IT IS FURTHER ORDERED that Defendant
Howard Appel is liable to Plaintiff Carey Ebert for
exemplary damages in the amount of $5,000,000.00.
9. IT IS FURTHER ORDERED that Defendant
Matthew Cohen is liable to Plaintiff Carey Ebert for
exemplary damages in the amount of $2,000,000.00.
10. IT IS FURTHER ORDERED that Defendant
John Paul DeJoria is liable to Plaintiff Carey Ebert for
exemplary damages in the amount of $1,000,000.00.
11. IT IS FURTHER ORDERED that court costs
are taxed in favor of Plaintiff Carey Ebert and against
all Defendants, in an amount to be determined pursuant
to Local Civil Rule 54.1 and applicable law.
12. IT IS FURTHER ORDERED that all amounts
awarded in this Judgment shall bear post-judgment
interest at the rate provided for pursuant to 28 U.S.C.
§1961, compounded annually, from the date of judgment
until paid.
SO ORDERED on this 7th day of March, 2018.
/s/						
Reed O’Connor
United States District Judge

24a
C THE UNITED
APPENDIX C —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF TEXAS, FORTH WORTH DIVISION,
FILED MARCH 7, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
Civil Action No. 4:15-cv-00225-O
CAREY D. EBERT,
Plaintiff,
v.
MICHAEL GUSTIN, et al.,
Defendants.
ORDER
Before the Court are Defendants How ard Miller
Appel and Ernest A. Bartlett, III’s (collectively “Separate
Defendants”) Motion for Reconsideration (ECF No. 322),
filed February 5, 2018; and Defendant John Paul DeJoria’s
(“DeJoria”) Motion for Reconsideration (ECF No. 324),
filed February 5, 2018. The motions have been fully briefed
and are ripe for review.
For the reasons stated below, the Court finds that
Separate Defendants’ Motion for Reconsideration (ECF
No. 322) should be and is hereby DENIED; and DeJoria’s

25a
Appendix C
Motion for Reconsideration (ECF No. 324) should be and
is hereby DENIED.
I.

BACKGROUND

Plaintiff Carey D. Ebert (“Ebert” or “Plaintiff”), the
Trustee for the Chapter 11 estate of Latitude Solutions,
Inc. (“LSI”), alleged that Defendants conducted a complex,
fraudulent enterprise to control and manipulate LSI,
its subsidiaries, and its stock. Specifically, Plaintiff
alleged that two groups of corporate insiders and coconspirators—the “First Board” and the “Second
Board,” respectively—misused LSI, its creditors, and
its shareholders, by perpetrating a “pump-and-dump”1
scheme. 2d Am. Compl. ¶ 12, ECF No. 34. Plaintiff
alleged that the Second Board, all of whom were corporate
fiduciaries, partnered with the First Board to continue
this fraudulent scheme. Id. She also alleged that the
Second Board deliberately disregarded warning signs
from LSI’s management, thereby violating its fiduciary
duty, acting in its own self-interest, grossly mismanaging
LSI’s business, and squandering corporate assets. Id. ¶ 1.
She further alleged that the combination of the First and
Second Boards’ fraud and corporate waste caused LSI to
go bankrupt, leaving creditors with as much as $40 million
in debt owed. Id.
1. “In a typical pump-and-dump, corporate insiders in a
micro-cap give themselves stock in a company, intentionally
manipulate the stock’s price through press releases, marketing,
and illegal trades, and then unload their shares at extravagant
profits before letting the company die.” Pl.’s 2d Am. Compl. 31,
ECF No. 34.

26a
Appendix C
The trial was held for five consecutive days between
July 10, 2017, and July 14, 2017. See Min. Entries, ECF
Nos. 279–84. On July 14, 2017, the jury found that Cohen
and DeJoria breached their fiduciary duty to LSI (Jury
Question 1); and that Appel, Bartlett, and DeJoria each
aided and abetted Cohen’s breach of fiduciary duty to LSI
(Jury Question 2). Jury Charge 6–7, ECF No. 287. The
parties then submitted the post-trial motions. See ECF
Nos. 294, 296, 297. The Court issued an order on January
22, 2018, finding sufficient evidence to support the jury
verdict against the Separate Defendants and DeJoria,
and finding them jointly and severally liable for Defendant
Matthew Cohen’s (“Cohen”) breach of fiduciary duty by
virtue of the jury finding that they each aided and abetted
Cohen’s breach. See Jan. 22, 2018 Order, ECF No. 320.
The Parties then filed the motions for reconsideration at
issue here. See ECF Nos. 322, 324.
II. LEGAL STANDARD
A motion to reconsider under Rule 59(e) “calls into
question the correctness of a judgment.” Templet v.
HydroChem Inc., 367 F.3d 473, 478 (5th Cir. 2004) (quoting
In re Transtexas Gas Corp., 303 F.3d 571, 581 (5th Cir.
2002)). Further, a Rule 59(e) motion “serve[s] the narrow
purpose of allowing a party to correct manifest errors
of law or fact or to present newly discovered evidence.”
Id. at 479. “‘Manifest error’ is one that ‘is plain and
indisputable, and that amounts to a complete disregard
of the controlling law.’” Brush v. Wells Fargo Bank, N.A.,
911 F. Supp. 2d 445, 480 (S.D. Tex. 2012) (quoting Guy v.
Crown Equip. Corp., 394 F.3d 320, 325 (5th Cir. 2004));

27a
Appendix C
see also Bank One, Tex., N.A. v. FDIC, 16 F. Supp. 2d 698,
713 (N.D. Tex. 1998) (Fitzwater, J.) (“[A] ‘manifest error’
is an obvious mistake or departure from the truth.”).
Additionally, a Rule 59(e) motion is “not the proper
vehicle for rehashing evidence, legal theories, or arguments
that could have been offered or raised before the entry
of judgment.” Templet, 367 F.3d at 479 (citing Simon v.
United States, 891 F.2d 1154, 1159 (5th Cir. 1990)); see also
Berge v. GE Oil & Gas, No. H-08-2931, 2011 WL 798204,
at *3 (S.D. Tex. 2011) (“Importantly, a ‘Rule 59(e) motion is
not proper to re-litigate matters that have been resolved
to the movant’s dissatisfaction and [movant] cannot have
a second bite at the apple on the same issues that were
previously addressed by the parties and this Court.’”)
(quoting Alvarado v. Tex. Rangers, No. EP-03-CA-0305FM, 2005 WL 1420846, at *2 (W.D. Tex. 2005)). Courts
have significant discretion in deciding whether to grant a
motion to reconsider, but the Fifth Circuit has cautioned
that a Rule 59(e) motion is “an extraordinary remedy
that should be used sparingly.” See Jones v. Stephens, 998
F. Supp. 2d 529, 536 (N.D. Tex. 2014) (Means, J.) (citing
Templet, 367 F.3d at 479); see also Riddle v. DynCorp. Int’l
Inc., 773 F. Supp. 2d 647, 649 (N.D. Tex. 2011) (Lindsay, J.)
(“[T]he Fifth Circuit has observed that Rule 59(e) ‘favor[s]
the denial of motions to alter or amend a judgment.’”)
(quoting S. Constructors Grp., Inc. v. Dynalectric Co., 2
F.3d 606, 611 (5th Cir. 1993)).

28a
Appendix C
III. ANALYSIS
A.

DeJoria’s Motion for Reconsideration

DeJoria asks the Court to reconsider its finding that
DeJoria is jointly and severally liable for the $6.9 million
in compensatory damages awarded against Cohen.
DeJoria’s Mot. Recon. 4, ECF No. 324. DeJoria argues:
(1) that the plain language of the Jury Charge provides,
at most, $1.5 million in liability as to DeJoria; (2) the
Texas Supreme Court recently clarified that liability for
aiding and abetted a breach of fiduciary duty requires an
analysis of each wrongful act and specifically whether the
knowing and substantial assistance provided by the aider
and abettor proximately caused the plaintiff’s damages.
Id. (citing First United Pentecostal Church of Beaumont
v. Parker, 514 S.W.3d 214 (Tex. 2017)); see Jury Charge
6–8, ECF No. 287.
First, DeJoria argues that the plain language of the
Jury Charge precludes a finding that DeJoria is liable
for the damages caused by Cohen’s breach. Specifically,
DeJoria points to Question 3, in which the jury found a
damage amount of $1.5 million against DeJoria in response
to the Court’s question of “[w]hat sum of money, if any, if
paid now in cash, would fairly and reasonably compensate
Carey Ebert, as LSI’s trustee, for the damages, if any,
that were proximately caused by any breach of fiduciary
duty or aiding and abetting such breach of fiduciary
duty by that defendant?” Jury Charge 8, ECF No. 287
(emphasis added). DeJoria argues that the jury’s finding
means that, at most, DeJoria is liable for $1.5 million in
damages. DeJoria’s Mot. Recon. 4, ECF No. 324. This

29a
Appendix C
argument was not only previously considered by the Court
in the jury charge conference—where the Court crafted
Question 3 after considering the parties’ arguments—it
was also raised, considered, and rejected in the Court’s
consideration of the parties’ post-trial motions. See
Pl.’s App. Opp. DeJoria Mot. Recon. 9–10, 15–17 (Jury
Charge Conf.), ECF No. 287 (“Mr. FARRELL: ‘Let’s
say Cohen is found $100,000 for breach, DeJoria is found
not independently liable for his own breach but then he
is found to have aided and abetted, then that just means
he’s jointly and severally liable for the $100,000.’”); Jan.
22, 2018 Order 24–25, ECF No. 320. Here, the jury found
DeJoria independently liable for $1.5 million in damages
based on his breach of fiduciary duty. Jury Charge 8,
ECF No. 287. The jury also found as a matter of fact that
DeJoria aided and abetted Cohen’s breach. Id. at 7. As
determined by the Court in its January 22, 2018 Order,
and addressed infra, as a matter of law, DeJoria is jointly
and severally liable for aiding and abetting the full amount
of Cohen’s breach.
Next, DeJoria cites Parker for the proposition
that “liability for aiding and abetting a fiduciary
breach . . . requires an analysis of each wrongful act
and specifically whether the knowing and substantial
assistance provided by the aider and abettor proximately
caused the damages claimed by the plaintiff.” DeJoria’s
Mot. Recon. 9, ECF No. 324 (citing Parker, 514 S.W.3d
at 224–25). DeJoria argues that for him to be jointly and
severally liable for Cohen’s breach, there must be proof
that he knowingly and substantially assisted Cohen in the
specific breach that caused the $6.5 million in damages
to LSI. Id.

30a
Appendix C
The Court notes that this argument was raised and
argued in DeJoria’s response to Plaintiff’s motion to
submit a proposed final judgment. See DeJoria’s Resp.
Pl’s Mot. Final J. 2, 7–8, ECF No. 302 (citing Parker, 514
S.W.3d at 224–225). DeJoria essentially argues now that
the Court committed manifest error when it failed to apply
Parker to relieve him and the Separate Defendants from
joint and several liability in its January 22, 2018 Order.
The Court agrees that Parker does instruct a court to
analyze the wrongful acts of a defendant to determine
whether they knowingly or substantially assisted the
underlying breach of fiduciary duty. But here, in contrast
to the facts of Parker, there is evidence that DeJoria
knew of and substantially assisted in Cohen’s breach. The
jury determined that, from the testimony and evidence
presented at trial, DeJoria aided and abetted Cohen, see
Jury Charge 6–7, ECF No. 287, and the Court’s postverdict analysis concluded there was evidence in the
record that DeJoria knew about Cohen’s actions before,
during, and after LSI incurred damages. See Jan. 22,
2018 Order 23–24, ECF No. 320. The Court finds that
Parker is factually distinguishable from the case at hand,
and as such, concludes that an imposition of joint and
several liability is proper and supported by Texas law. See
Kinzbach v. Corbett-Wallace Corp., 160 S.W.2d 509, 512–14
(Tex. 1942); Orchestratehr, Inc. v. Trombetta, No 3:13-cv2110-KS-BH, 2016 WL 4563348, at *5 (N.D. Tex. Sept. 1,
2016). Accordingly, DeJoria’s motion for reconsideration
is DENIED.

31a
Appendix C
B. S e p a r a t e D e f e n d a n t s ’ M o t i o n f o r
Reconsideration
Separate Defendants incorporate the arguments made
by DeJoria into their motion for reconsideration, which for
the reasons stated above are DENIED. They also raise
an additional argument, which the Court considers below.
Separate Defendants argue that the Court erred
when it found that Howard Appel and Ernest Bartlett
were jointly and severally liable for the $6.9 million in
compensatory damages awarded against Cohen based on
an application of Texas case law addressing the common
law tort of aiding and abetting breach of fiduciary duty.
Br. Supp. Separate Defs.’ Mot. Recon. 1, ECF No. 323.
They argue that “the cases relied upon by the Court [in
its January 22, 2018 Order] were decided prior to adoption
of the 1995 tort reform amendments . . . [that] abolish joint
and several liability” for intentional torts absent a finding
of more than fifty percent responsibility. Id. (citing Tex.
Civ. Prac. & Rem. Code § 33.013(b)). But Texas courts
have consistently found that once a derivative tort, such
as aiding and abetting, has been established, the third
party is liable for the acts of the original defendant’s
breach, and apportionment of fault is immaterial. See
Heat Shrink Innovations, LLC v. Medical Extrusion
Technologies-Texas, Inc., 2014 WL 5307191, *6–7 (Tex.
App.—Fort Worth 2014) (“It is unnecessary to submit a
question to the jury to apportion liability [for aiding and
abetting breach of fiduciary duty]; Heat Shrink’s liability
is Wolfe’s liability”); Rosell v. Ctr. W. Motor Stages, 89
S.W.3d 643, 656–57 (Tex. App.—Dallas 2002, pet denied).
The Court’s findings in its January 22, 2018 Order are

32a
Appendix C
consistent with Texas courts’ conclusions made after the
1995 tort reform amendments and does not amount “to
a complete disregard of the controlling law.’” Cf. Brush,
911 F. Supp. 2d at 480 (quoting Guy, 394 F.3d at 325).
Therefore, the Court finds that it did not commit manifest
error in imposing joint and several liability for aiding and
abetting breach of fiduciary duty. 2
Accordingly, Separate Defendants’ motion for
reconsideration is DENIED.
IV. CONCLUSION
For the reasons stated below, the Court finds that
Separate Defendants’ Motion for Reconsideration (ECF
No. 322) should be and is hereby DENIED; and DeJoria’s
Motion for Reconsideration (ECF No. 324) should be and
is hereby DENIED.
SO ORDERED on this 7th day of March, 2018.
/s/				
Reed O’Connor
UNITED STATES DISTRICT
JUDGE
2. To the extent that Separate Defendants argue that
Plaintiff failed to prove the damages sought with regard to
Appel and Bartlett’s roles in Cohen’s breach, the Court has
already addressed this argument at length in its sufficiency of
the evidence analysis. Br. Supp. Separate Defs.’ Mot. Recon. 3,
ECF No. 323; Separate Defs.’ Reply 5, ECF No. 328. The Court
detailed sufficient evidence of damages incurred by LSI by and
through Appel and Bartlett’s actions. See Jan. 22, 2018 Order
14–15, 17–18, ECF No. 320.

33a
Appendix D —Appendix
ORDER D
of the UNITED
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF TEXAS, FORT WORTH DIVISION,
FILED JANUARY 22, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
Civil Action No. 4:15-cv-00225-O
CAREY D. EBERT,
Plaintiff,
v.
MICHAEL GUSTIN et al.,
Defendants.
ORDER
Before the Court are Defendants Howard Miller
Appel, Ernest A. Bartlett, III, and Matthew Cohen’s
(collectively “Separate Defendants”) Motion to Alter
Judgment as a Matter of Law (ECF No. 294), filed
August 3, 2017; Defendant John Paul DeJoria’s Motion for
Judgment as a Matter of Law (ECF No. 296), filed August
7, 2017; and Plaintiff Carey D. Ebert’s Amended Motion
for Judgment (ECF No. 297), filed August 21, 2017. The
motions have been fully briefed and are ripe for review.

34a
Appendix D
Having considered the Motions, related briefing, and
relevant law, the Court finds that Separate Defendants’
Motion to Alter Judgment as a Matter of Law (ECF No.
294) should be and is hereby DENIED; Defendant John
Paul DeJoria’s Motion for Judgment as a Matter of Law
(ECF No. 296) should be and is hereby DENIED; and
Plaintiff’s Amended Motion for Judgment (ECF No. 297)
should be and is hereby GRANTED.
I.

BACKGROUND

Plaintiff Carey D. Ebert (“Ebert” or “Plaintiff”), the
Trustee for the Chapter 11 estate of Latitude Solutions,
Inc. (“LSI”), alleged that Defendants conducted a complex,
fraudulent enterprise to control and manipulate LSI,
its subsidiaries, and its stock. Specifically, Plaintiff
alleged that two groups of corporate insiders and coconspirators—the “First Board” and the “Second
Board,” respectively—misused LSI, its creditors, and
its shareholders, by perpetrating a “pump-and-dump”1
scheme. 2d Am. Compl. ¶ 12, ECF No. 34. Plaintiff
alleged that the Second Board, all of whom were corporate
fiduciaries, partnered with the First Board to continue
this fraudulent scheme. Id. She also alleged that the
Second Board deliberately disregarded warning signs
from LSI’s management, thereby violating its fiduciary
1. “In a typical pump-and-dump, corporate insiders in a
micro-cap give themselves stock in a company, intentionally
manipulate the stock’s price through press releases, marketing,
and illegal trades, and then unload their shares at extravagant
profits before letting the company die.” Pl.’s 2d Am. Compl. 31,
ECF No. 34.

35a
Appendix D
duty, acting in its own self-interest, grossly mismanaging
LSI’s business, and squandering corporate assets. Id. ¶ 1.
She further alleged that the combination of the First and
Second Boards’ fraud and corporate waste caused LSI to
go bankrupt, leaving creditors with as much as $40 million
in debt owed. Id.
The parties tried this dispute for five consecutive days
between July 10, 2017, and July 14, 2017. See Min. Entries,
ECF Nos. 279–84. On July 13, 2017, near the end of trial,
the Court granted Plaintiff’s motion to dismiss all of her
fraud claims against Defendants Harvey Klebanoff (a/k/a
Kaye); Michael Gustin; Jeffrey Wohler; RM Advisors,
Inc.; Capital Growth Realty, Inc.; Capital Growth
Investment Trust; DIT Equity Holdings; FEQ Realty,
LLC; Discretionary Investment Trust; KWL Exploration
and Development, Inc.; Moggle Investors, LLC; Wiltomo
Redemption Foundation; and SST Advisors. See July 17,
2017 Order, ECF No. 285; Min. Entry, ECF No. 283.
Claims of breach of fiduciary duty, aiding and abetting
breach of fiduciary duty, and any possible resulting
damages—against Defendant DeJoria and the Separate
Defendants—were the only claims that remained for jury
consideration.
On July 14, 2017, the jury found that Cohen and
DeJoria breached their fiduciary duty to LSI (Jury
Question 1); and that Appel, Bartlett, and DeJoria each
aided and abetted Cohen’s breach of fiduciary duty to LSI
(Jury Question 2). Jury Charge 6–7, ECF No. 287. The
parties then submitted the post-trial motions at issue
here. See ECF Nos. 294, 296, 297. The Court will consider
each in turn.

36a
Appendix D
II. LEGAL STANDARDS
A.

Rule 50 Judgment as a Matter of Law

Rule 50 of the Federal Rules of Civil Procedure
governs motions for judgment as a matter of law in jury
trials. See Fed. R. Civ. P. 50; Weisgram v. Marley Co., 528
U.S. 440, 448–49 (2000). Rule 50(a) “authorizes the entry
of judgment as a matter of law ‘[i]f a party has been fully
heard on an issue during a jury trial and the court finds
that a reasonable jury would not have a legally sufficient
evidentiary basis to find for the party on that issue.’” See
James v. Harris Cnty., 577 F.3d 612, 617 (5th Cir. 2009)
(quoting Fed. R. Civ. P. 50(a)). “It allows the trial court
to remove cases or issues from the jury’s consideration
‘when the facts are sufficiently clear that the law requires
a particular result.’” Weisgram, 528 U.S. at 448 (quoting 9
Wright & Miller, Federal Practice and Procedure § 2521
(2d ed. 1995)). “If the court does not grant a motion for
judgment as a matter of law made under Rule 50(a), the
court is considered to have submitted the action to the jury
subject to the court’s later deciding the legal questions
raised by the motion.” Fed. R. Civ. P. 50(b).
“[I]n entertaining a motion for judgment as a matter
of law, the court should review all of the evidence in the
record.” Reeves v. Sanderson Plumbing Prods., Inc., 530
U.S. 133, 150 (2000). “In doing so, however, the court must
draw all reasonable inferences in favor of the nonmoving
party, and it may not make credibility determinations
or weigh the evidence.” Id. (citing Lytle v. Household
Mfg., Inc., 494 U.S. 545, 554–55 (1990)). “Credibility

37a
Appendix D
determinations, the weighing of the evidence, and the
drawing of legitimate inference from the facts are jury
functions, not those of a judge.” Id. at 150–51 (quoting
Anderson v. Liberty Lobby, 477 U.S. 242, 255 (1986)).
“Thus, although the court should review the record as
a whole, it must disregard all evidence favorable to the
moving party that the jury is not required to believe.”
Id. at 151.
“A motion for judgment as a matter of law is
appropriate if, after considering the evidence presented
and viewing all reasonable inferences in the light most
favorable to the nonmovant, the facts and inferences point
so strongly in favor of the movant that a rational jury
could not arrive at a contrary verdict.” Murray v. Red
Kap Indus., Inc., 124 F.3d 695, 697 (5th Cir. 1997). “If
there is substantial evidence of such quality and weight
that reasonable and fair-minded jurors might reach a
different conclusion,” then judgment as a matter of law is
not appropriate. Id. “In other words, the evidence must be
sufficient so that a jury will not ultimately rest its verdict
on mere speculation and conjecture.” Anthony v. Chevron
USA, Inc., 284 F.3d 578, 583 (5th Cir. 2002) (citing Gulf
Coast Real Estate Auction Co. v. Chevron Indus., Inc.,
665 F.2d 574, 577 (5th Cir. 1982)). “We must remember,
however, that evidence sufficient to support a jury verdict
must be substantial evidence.” Guile v. United Sates,
422 F.3d 221, 227 (5th Cir. 2005) (emphasis in original).
“[T]he party opposing the motion must at least establish a
conflict in substantial evidence on each essential element
of [his] claim.” See Anthony, 284 F.3d at 583. Finally,
“[t]he ‘standard of review with respect to a jury verdict

38a
Appendix D
is especially deferential.’” Lubke v. City of Arlington, 455
F.3d 489, 494 (5th Cir. 2006) (quoting Brown v. Bryan
Cnty, 219 F.3d 450, 456 (5th Cir. 2000)).
B. Rule 59 Motion for New Trial
Under Federal Rule of Civil Procedure 59, the Court
may grant a new trial after a jury trial “for any reason
for which a new trial has heretofore been granted in an
action at law in federal court.” Fed. R. Civ. P. 59 (a)(1)(A).
While this rule does not enumerate specific grounds for
granting a new trial, the Fifth Circuit has found that a
new trial is appropriate where: (1) the verdict is against
the weight of the evidence, (2) the amount of damages
awarded is excessive, or (3) the trial was unfair or marred
by prejudicial error. Seidman v. Am. Airlines, Inc., 923
F.2d 1134, 1140 (5th Cir. 1991). “Courts do not grant new
trials unless it is reasonably clear that prejudicial error
has crept into the record or that substantial justice has not
been done, and the burden of showing harmful error rests
on the party seeking the new trial.” Del Rio Distrib., Inc.
v. Adolph Coors Co., 589 F.2d 176, 179 n.3 (5th Cir. 1979).
C.

Rule 59(e) Motion to Alter or Amend Judgment

Federal Rule of Civil Procedure 59(e) allows a party to
file a motion to alter or amend a judgment within twentyeight days after entry of the judgment. Fed. R. Civ. P.
59(e). Motions for reconsideration are permitted in limited
situations, primarily to correct “a manifest error of law or
fact” or “to present newly discovered evidence.” Turner
v. Baylor Richardson Med. Ctr., 476 F.3d 337, 344 (5th

39a
Appendix D
Cir. 2007). A motion for reconsideration is not a means
for “rehashing evidence, legal theories, or arguments
that could have been offered or raised before the entry
of judgment.” Templet v. HydroChem Inc., 367 F.3d 473,
479 (5th Cir. 2004).
III.

ANALYSIS
A.

Separate Defendants’ Rule 50 Motion

On August 3, 2017, Separate Defendants filed a motion
for judgment as a matter of law under Rule 50, or in the
alternative, a motion to alter or amend the judgment, and
for a new trial under Rule 59. Separate Defs.’ Mot. JMOL,
ECF No. 294. Separate Defendants argue that Plaintiff
failed to establish the existence of a fiduciary duty as
to Cohen, a condition precedent to the jury finding that
Defendants breached that duty or aided and abetted that
breach. Id. at 7. Separate Defendants therefore argue that
the evidence in the record is insufficient to support the
jury’s finding on Jury Questions 1 and 2. The Court will
analyze the motion as to each defendant below.
1.

Matthew Cohen

The jury found that Cohen breached his fiduciary duty
to LSI’s creditors and awarded Plaintiff damages in the
amount of $6.5 million in connection with Damage Element
12 and $400,000.00 in connection with Damage Element
2. The Jury Charge on Damage Element 1 asks the jury
to find whether “[t]he reasonable cash market value of liabilities

40a
Appendix D
2. 3 Jury Charge 8, ECF No. 287. Separate Defendants
argue that there is insufficient evidence to support the
jury’s finding that Cohen breached his fiduciary duty to
LSI’s creditors because, inter alia, (1) as a matter of law,
corporations only owe their creditors a fiduciary duty
when they are insolvent, and LSI was not insolvent during
2011 when the alleged breach occurred; and (2) Cohen
had no duty to disclose Appel’s involvement with LSI
before LSI contracted with Jabil Circuits, Inc. (“Jabil”)
because Appel was only a minority shareholder at the
time and was only employed by LSI as a consultant after
LSI contracted with Jabil. Br. Supp. Separate Defs.’ Mot.
JMOL 5–7, ECF No. 294-1.
Plaintiff responds that the jury had sufficient
evidence to find, and correctly found, that Cohen breached
his fiduciary duty, because he (1) acquired for LSI a
multimillion dollar contract with Jabil for an illegitimate
purpose; (2) allowed Appel, who had a previous conviction
for securities fraud, to control LSI; and (3) failed to
disclose Appel’s involvement to the public and outside
creditors. Pl.’s Resp. Defs.’ Mot. JMOL 4, ECF No. 306.
Plaintiff does not address in writing the argument that
incurred by LSI” was “a proximate cause of that defendant’s
breach of fiduciary duty, [and] which liabilities are still owed and
have not yet been paid, if any.” Jury Charge 8, ECF No. 287.
3. The Jury Charge on Damage Element 2 asks the jury to
find whether Defendants’ breach of fiduciary duty “proximately
caused” damage to LSI, and “[t]he reasonable market value of any
gains to that defendant (including salaries, consulting fees, net
proceeds from stock issuances to directors and/or officers of LSI,
and other expenses) . . . .” Jury Charge 8, ECF No. 287.

41a
Appendix D
she failed to prove LSI was insolvent before May 2011,
when Cohen committed LSI to the Jabil contract, but
Plaintiff’s counsel orally argued on July 12, 2017, during
the hearing on the Rule 50 Motions, that “[t]here’s ample
evidence in the record that at that time, pretty much at all
times, LSI was insolvent and as a matter of law fiduciary
duties in an insolvent company run not to just the company
and the shareholders but to creditor [sic].” Min. Entry at
23:20–23, ECF No. 291.
In resolving this motion as to Cohen, the Court must
determine whether the evidence Plaintiff presented to the
jury was sufficient regarding (1) proof of LSI’s insolvency
before Cohen committed LSI to the Jabil contract; and (2)
Cohen’s actions constituting breach of his fiduciary duty
to LSI’s creditors, namely Jabil. The Court addresses
each prong in turn.
a.

Sufficiency of the Evidence to Show LSI
was Insolvent

Separate Defendants must show that Plaintiff failed
to provide sufficient evidence that LSI was insolvent as a
matter of law during the time that Cohen was an officer
and director of LSI and before Cohen committed LSI to
the Jabil contract.4 Under Texas law corporate officers and
directors only owe corporate creditors a fiduciary duty
when their corporation is insolvent. Conway v. Bonner,
4. It is undisputed that Cohen was an officer and director
of LSI from March 2009 to June 2012. See Jury Charge 5, ECF
No. 287.

42a
Appendix D
100 F.2d 786, 787 (5th Cir. 1939); see also Carrieri v. Jobs.
com, Inc., 393 F.3d 508, 534 n.24 (5th Cir. 2004) (“Officers
and directors that are aware that the corporation is
insolvent, or within the ‘zone of insolvency’ as in this case,
have expanded fiduciary duties to include the creditors of
the corporation.”). Texas law defines “insolvent” as “(A)
having generally ceased to pay debts in the ordinary
course of business other than as a result of a bona fide
dispute; (B) being unable to pay debts as they become due;
or (C) being insolvent within the meaning of the federal
bankruptcy code.” Tex. Bus. & Com. Code § 1.201(b)(23)
(emphasis added). According to the Federal Bankruptcy
Code, “insolvent” means a “financial condition such that
the sum of such entity’s debts is greater than all of such
entity’s property, at a fair valuation, exclusive of—(i)
property transferred, concealed, or removed with intent
to hinder, delay, or defraud such entity’s creditors; and
(ii) property that may be exempted from property of the
estate under section 522 [of the Bankruptcy Code]” 11
U.S.C. § 101(32)(a).
The Court, having reviewed the entire record, finds
sufficient evidence to support a jury finding that LSI was
insolvent at the time Cohen, as an officer and director of
LSI, committed the company to the Jabil contract and
allegedly breached his fiduciary duty to both LSI and
now-creditor Jabil.
First, Plaintiff offered into evidence LSI’s Form
10—the financial disclosure document filed with the
U.S. Securities and Exchange Commission (“SEC”) by
which LSI went public. Cohen testified that on Form 10’s

43a
Appendix D
balance sheet for years 2008 and 2009, LSI had a negative
net worth and that the liabilities exceed the assets of
the company. See Defs.’ Ex. 421 at 58–65, ECF No. 276.
Plaintiff’s counsel asked Cohen, “[D]oes that mean that
as of that date at least by some definitions the company
was technically insolvent?” Id. Cohen responded, “Yes.
That’s what it indicates. A negative net worth would be a
sign of insolvency.” Id.
Additionally, Dr. Joseph Anthony McGee, Jabil’s
executive vice president, testified about invoices Jabil
sent to LSI pursuant to their master service agreement.
Dr. McGee testified that LSI never paid its invoices as
they became due, and that around the time of November
2011, LSI’s non-payments caused executives at Jabil to
become concerned that LSI could not pay its arrearages.
Dr. McGee testified at length about the specifics of invoices
and growing debt that LSI faced in its dealings with Jabil.
See July 11, 2017 Trial Tr. (McGee testimony); Pl.’s Trial
Ex. 176.
Finally, McBroom, an employee of Select Energy
Services and the co-inventor of two patents relating
to water remediation technology, testified about his
experience working with LSI. Specifically, McBroom
testified that LSI’s October 6, 2011 Press Release
regarding the successful deployment of water remediation
technology by LSI was not a truthful statement. He
also testified that LSI had never transitioned from a
deployment phase to a commercial phase, meaning that
LSI was never a revenue-producing company. In further
support of McBroom’s testimony, Plaintiff’s counsel

44a
Appendix D
submitted at trial the deposition testimony Jeffrey Wohler,
LSI’s President and chief executive officer (“CEO”) from
January 2012 until August 2012, who claimed that LSI was
never commercially viable. Pl.’s App. Defs.’ Mot. JMOL
62, ECF No. 307-1 (hereinafter “Pl.’s App.”).
Under the Federal Bankruptcy Code, an entity whose
debts are greater than its assets falls within the statutory
definition of insolvency. 11 U.S.C. § 101(32)(a). The Court
finds that the testimony and other evidence identified
above is more than sufficient for a reasonable jury to find
that LSI was insolvent before LSI contracted with Jabil.
The Court therefore also finds that Cohen owed a fiduciary
duty to LSI’s creditor Jabil. The Court will next address
whether there is sufficient evidence to show that Cohen
breached his fiduciary duty to LSI’s creditor Jabil.
b.

Sufficiency of the Evidence to Show
Cohen Breached His Fiduciary Duty

Separate Defendants argue Cohen never had a duty to
disclose Appel’s involvement with LSI before the execution
of the Jabil contract, and therefore, the jury’s finding
that he breached his fiduciary duty must be overturned.
Br. Supp. Separate Defs’ Mot. JMOL 4, ECF No. 2941. Plaintiff responds that the jury correctly found that
Cohen breached his fiduciary duty to LSI in at least
three ways: (1) he caused LSI to enter into a multimillion
dollar contract with Jabil for an illegitimate purpose; (2)
he allowed Appel, a convicted felon, to control LSI; and
(3) he failed to disclose Appel’s involvement to the public
and outside creditors. Pl.’s Resp. Defs.’ Mot. JMOL 4,
ECF No. 306.

45a
Appendix D
Under Texas law, a breach of fiduciary duty claim
requires: (1) a fiduciary relationship; (2) a breach of this
relationship; and (3) an injury to the plaintiff or benefit
to the defendant resulting from this breach. Navigant
Consulting, Inc. v. Wilkinson, 508 F.3d 277, 283 (5th Cir.
2007). It is also well established that “[c]orporate officers
owe fiduciary duties to the corporations they serve.” Duke
Energy Int’l L.L.C. v. Napoli, 748 F. Supp. 2d 565, 667
(S.D. Tex. 2010) (citing Loy v. Harter, 128 S.W.3d 397, 407
(Tex. App.—Texarkana 2004, pet. denied)). Consistent
with these legal principles, the Court instructed the jury:
You are instructed that an officer or director
owes a fiduciary duty to a corporation during
the period of time that he was an officer or
director of the corporation. The period of time
relevant to each defendant in connection with
this question for LSI is as follows:
1. Matthew Cohen--March 2009 until June 2012.
2. John Paul DeJoria--October 21, 2011 until
September 14, 2012.
You are further instructed that to prove that
a defendant failed to comply with his fiduciary
duty to LSI, Carey Ebert, as Trustee, must
prove that the defendant failed to comply with
either a duty of loyalty or duty of care owed to
LSI. The duty of loyalty requires that an officer
or director act in good faith and not allow his
or her personal interest to prevail over the
interest of the corporation. The duty of loyalty

46a
Appendix D
is described as requiring an extreme measure
of candor, unselfishness, and good faith on the
part of the officer or director. The duty of care
requires that the officer or director handle
his corporate duties with the diligence and
prudence that an ordinarily prudent person
would use under similar circumstances. . . . 5
Jury Charge 6, ECF No. 287. The jury found that Cohen
breached his fiduciary duty to LSI. Id. For the following
reasons, this finding is supported by sufficient evidence.
Plaintiff argued and presented evidence at trial
that Cohen caused LSI to enter into the Jabil contract
in May 2011 for illegitimate reasons, namely “to give
the misleading appearance of commercial viability to
the market for the purpose of furthering defendants’
attempted pump-and-dump scheme.” Pl.’s Resp. Defs.’
Mot. JMOL 5, ECF No. 306. Cohen testified that he
personally dealt with Jabil prior to the signing of the
contract. Pl.’s App. 116, ECF No. 307-1. As stated above,
McBroom and LSI CEO Wohler testified that LSI was
not commercially viable at any time before or after
the execution of the Jabil contract. Pl.’s App. 62, ECF
No. 307-1. Wohler testified that when he was doing due
diligence on behalf of DeJoria, he could not determine
the operational cost of the water remediation technology,
which meant that LSI’s business model was unsound. Pl.’s
App. 56–57, ECF No. 307-1. Furthermore, LSI’s Form
5. This section of the jury charge further instructed the
jury on the application of business judgment rule to actions by
corporate officers and directors.

47a
Appendix D
8K—filed with the SEC the day before LSI initiated
bankruptcy proceedings—states that LSI “exploded its
debt investment without a committed or potential revenue
to service such debt.” Pl.’s App. 21, ECF No. 307-1.
There is also evidence of Plaintiff’s other two theories
of Cohen’s breach—that Cohen allowed Appel to control
LSI and failed to disclose Appel’s involvement to outside
investors. See infra Section III(A)(2) (finding evidence
of Appel’s involvement in LSI decision-making sufficient
to support a jury finding that Appel aided and abetted
Cohen’s breach of fiduciary duty). Upon review of the
entire record, the Court finds sufficient evidence to
support a jury finding that Cohen breached his fiduciary
duty to LSI.
The Court also finds sufficient evidence to support a
jury finding that Cohen’s breach proximately caused $6.9
million in damages. See Jury Charge 8, ECF No. 287.
Plaintiff argued that because Cohen entered the Jabil
contract with knowledge that LSI would not be able to
perform under the contract, the damages incurred as a
result of this breach totaled slightly over $9.5 million (the
amount of debt LSI owed to Jabil). To support this theory,
Plaintiff presented Jabil’s proof of claim filed in bankruptcy
court and trial testimony of Jabil representatives. See Pl.’s
Trial Exs. 175, 180. This is more than some evidence to
show that the execution of the Jabil contract proximately
caused LSI damages. It was within the jury’s discretion
to award below the requested $9.5 million based on their
credibility determinations.

48a
Appendix D
The jury also awarded $2 million in exemplary
damages against Cohen based on clear and convincing
evidence that Cohen acted with malice or gross negligence.
Jury Charge 9–10, ECF No. 287; see also T ex . Civ.
Prac. & Rem. Code § 41.003 (requirements for award of
exemplary damages). The Court finds this award, based
on the evidence of Cohen’s conduct presented above,
is appropriate and reasonable in relation to the actual
damages awarded. See Roth v. Mims, 298 B.R. 272, 297–98
(N.D. Tex. 2003).
Accordingly, Separate Defendants JMOL is DENIED
as to Cohen.
2. 	Howard Appel
The jury found that Appel aided and abetted Cohen’s
breach of fiduciary duty and it awarded $2.5 million in
damages in connection with Damage Element 2.6 Jury
Charge 7–8, ECF No. 287. Separate Defendants argue
that there is insufficient evidence to support these
findings, namely that Appel was a minority shareholder
before LSI executed the Jabil contract, and that Appel
did not become an outside consultant to LSI until June 24,
2011. Br. Supp. Separate Defs.’ Mot. JMOL 8–9, ECF No.
294-1. Further, Separate Defendants argue that Plaintiffs
failed to present evidence of proximate cause with respect
to the claim for damages assessed against both Appel and
Bartlett. Id. at 16–17. They argue that Plaintiff’s expert on
damages “did not offer any opinion on causation between
6. See supra footnote 2 for Damage Element 2 of the jury
charge.

49a
Appendix D
the alleged $5.1 million and the breach of fiduciary duty
or aiding and abetting breach of fiduciary duty.” Id. at 18.
Plaintiff responds that the evidence supports a
reasonable jury’s conclusion “that Appel’s participation
in LSI and substantial assistance to Cohen started in
early 2011 or late 2010” and Appel’s participation was a
proximate cause of Cohen’s breach, resulting in the jury’s
reasonable finding of $2.5 million in damages. Pl.’s Resp.
Defs.’ Mot. JMOL 16–19, ECF No. 306.
Under Texas law, an aiding and abetting breach
of fiduciary duty claim requires: (1) the existence of a
fiduciary relationship; (2) a third party with knowledge
of the fiduciary relationship; and (3) that third party’s
participation in the breach of that fiduciary relationship.
Meadows v. Hartford Life Ins. Co., 492 F.3d 634, 639 (5th
Cir. 2007) (citing Cox Tex. Newspapers, L.P. v. Wootten,
59 S.W.3d 717, 721–22 (Tex. App. 2001). Consistent with
these legal principles, the Court instructed the jury:
To establish a claim for aiding and abetting
a breach of fiduciary duty, Carey Ebert, as
LSI’s trustee, must prove: (1) the existence
of a fiduciary relationship; (2) that the third
party knew of the fiduciary relationship; and
(3) that the third party was aware that it was
participating in the breach of that fiduciary
relationship.
Jury Charge 7, ECF No. 287. The first element here is
undisputed—the parties agree that Cohen was an officer

50a
Appendix D
and director of LSI and Cohen owed LSI a fiduciary
duty. Id. at 5, 7. Second, Plaintiff offered more than some
evidence that Appel knew that Cohen was an officer and
director of LSI—including, for example, Appel’s own
testimony about his meeting with “Harvey Kaye, my
friend Kenny, and Matt Cohen” in October 2010. See Pl.’s
App. 77–78, 85, ECF No. 307-1.
Separate Defendants argue that there is no evidence in
the record to support a jury finding that Appel “knowingly
participated and provided substantial assistance in
connection with the alleged breach of fiduciary duty” by
Cohen, and therefore Plaintiff failed to prove an essential
element of their claim. Br. Supp. Separate Defs.’ Mot.
JMOL 9, ECF No. 294-1. The Court disagrees. Plaintiff
provided more than some evidence as to this element such
that a reasonable jury could conclude that Appel knowingly
participated in, and substantially assisted, Cohen’s breach.
Plaintiff presented evidence that Appel participated in
LSI executive committee meetings (Pl.’s Trial Ex. 88);
shared non-public information with Cohen (Pl.’s Trial
Exs. 23, 81), drafted and edited LSI press releases (Pl.’s
Trial Exs. 26, 145), and attempted to control the Board
of Directors of LSI (Pl.’s Trial Ex. 70). Numerous LSI
directors and associates testified that Cohen gave Appel
access to LSI documents and allowed Appel to exercise
control over LSI company policy and financial decisions.
See Pl.’s App. 63, 66, 124, 128, 136–37, ECF No. 307-1.
The evidence here sufficiently supports a reasonable jury
finding that Plaintiff met her burden to prove the third
element—that Appel knowingly participated and provided
substantial assistance to Cohen in his breach of fiduciary

51a
Appendix D
duty. For the reasons stated above, the Court finds that
there is sufficient evidence for a jury finding that Appel
aided and abetted Cohen’s breach of fiduciary duty.
Separate Defendants next challenge the $2.5 million
damages awards against Appel and Bartlett, claiming
Plaintiff failed to prove that their actions proximately
caused damage to LSI. They rely on Qualls v. State
Farm Lloyds, 226 F.R.D. 551, 552 (N.D. Tex. 2005), for
the proposition that “expert testimony is required under
Texas law to prove causation where the underlying tort
is of such a nature as not to be within the experience of
the layman.” Br. Supp. Separate Defs.’ Mot. JMOL 17,
ECF No. 294-1. They argue that Plaintiff’s expert “Manz
did not offer an opinion on causation between the alleged
$5.1 million” and the breach, and therefore Appel and
Bartlett cannot be found liable for the $2.5 million each
or the additional $5 million in punitive damages assessed
against Appel by the jury. Plaintiffs argue that under
Texas law “lay testimony is adequate to prove causation
in those cases in which general experience and common
sense will enable a layman, to determine, with reasonable
probability, the causal relationship between the event
and the condition,” and that this Court should review
the evidence in this case under that standard. Morgan
v. Compugraphic Corp., 675 S.W.2d 729, 733 (Tex. 1984).
But Qualls is legally and factually distinguishable.
First, Qualls involved an action where homeowners
brought claims for breach of the homeowner’s policy, and
inter alia breach of the duty of good faith and fair dealing
against their insurance company. Qualls, 226 F.R.D. at

52a
Appendix D
552. The court in Qualls considered if expert testimony on
the issue of causation is required to prove damages under
Texas law. Id. at 554–55. A faulty sewer pipe caused mold
to develop in the Qualls’ home, which led to the damages at
issue. The court found that expert testimony was required
to establish causation because “although it may be within
general experience that water can cause mold, it is not
within general experience that a buried sewer pipe that
does not leak under normal flow conditions could cause
mold over an extended distance throughout a house.” Id.
at 558. The Qualls court cited cases examining medical
claims, where “medically complex diseases and causal
ambiguities compound the need for expert testimony.”
Id. at. 556 (citations omitted). Qualls is therefore neither
factually nor legally similar to the case at hand. Unlike
Qualls, this case does not present the same kind of
complex issues and ambiguities that would persuade
the Court to depart from the standard set by the Texas
Supreme Court in Morgan to prove causation. 675 S.W.2d
at 733. Therefore, Plaintiff did not need to provide expert
testimony on the causation issue if a reasonable jury of
laymen could determine with reasonable probability that
Appel’s actions were a substantial factor in bringing about
at least $2.5 million in damages to LSI.
There is more than some evidence in the record to
support the jury’s finding on causation. Manz testified
that his extensive investigation into LSI’s financials
informed his opinion that certain defendants, including
Appel, profited $5.1 million from the sale of LSI stock.
Trial Tr. (Manz testimony) 32–34, ECF No. 288. There
is also evidence in the record of Appel’s involvement with

53a
Appendix D
the terminated defendants—the “friends and family” who
were included in Manz’s damage assessment as entities
who profited from selling LSI stock. Appel also testified
at trial that he and Bartlett received “approximately
a million and-a-half shares of restricted stock of LSI,”
warrants at a $2 strike price, and $350,000 in cash paid
to FEQ Realty as a form of compensation for their efforts.
This evidence is more than sufficient to support a jury
finding that Appel caused, and is liable for, at least $2.5
million in damages.
The jury also awarded $5 million in exemplary
damages against Appel. Jury Charge 10, ECF No. 287; see
also Tex. Civ. Prac. & Rem. Code § 41.003 (requirements
for award of exemplary damages).7 The award of $5 million
in exemplary damages equals two times the award of $2.5
million in actual damages assessed by the jury, and does
not exceed the exemplary damages cap under § 41.008(b)
(1)(A). Therefore, the Court finds this award, based on
the evidence presented above of Appel’s conduct, does not
exceed the statutory cap and is appropriate and reasonable
in relation to the actual damages awarded. See Roth v.
Mims, 298 B.R. 272, 297–98 (N.D. Tex. 2003).

7. Texas imposes a cap on exemplary damages and provides
“(b) [e]exemplary damages awarded against a defendant may not
exceed an amount equal to the greater of: (1)(A) two times the
amount of economic damages; (B) plus an amount equal to any
noneconomic damages found by the jury, not to exceed $750,000;
(2) or $200,000.” Tex. Civ. Prac. & Rem. Code § 41.008.

54a
Appendix D
Accordingly, Separate Defendants JMOL is DENIED
as to Appel.
3. 	Earnest Bartlett
The jury found that Bartlett aided and abetted Cohen’s
breach of fiduciary duty and it awarded $2.5 million in
damages in connection with Damage Element 2. 8 Jury
Charge 7–8, ECF No. 287. Separate Defendants argue
that there is insufficient evidence to support these findings
because Plaintiff failed to prove that Bartlett “knowingly
participated in and provided substantial assistance in
connection with the alleged breach of [ ] Cohen’s fiduciary
relationship to LSI . . . .” Br. Supp. Separate Defs.’ Mot.
JMOL 19, ECF No. 294-1.
To prove Bartlett aided and abetted Cohen’s breach
of fiduciary duty, Plaintiff was required to prove: (1) the
existence of a fiduciary relationship; (2) that Bartlett
knew of the fiduciary relationship; and (3) that Bartlett
was aware that he was participating in the breach of that
fiduciary relationship. Meadows, 492 F.3d at 639. The first
element here is undisputed—the parties agree that Cohen
was an officer and director of LSI and Cohen owed LSI
a fiduciary duty. Jury Charge 5, 7, ECF No. 287. Second,
Plaintiff offered more than some evidence that Bartlett
knew that Cohen was an officer and director of LSI—
Appel testified about his close business relationship with
Bartlett and how he encouraged Bartlett to invest in LSI
8. See supra footnote 2 for Damage Element 2 of the jury
charge.

55a
Appendix D
through his company FEQ Realty, LLC (“FEQ Realty”).
Pl.’s App. 76–78, ECF No. 307-1; Def.’s Demo. Trial Ex.
30. Bartlett, through FEQ Realty, invested in LSI and
it is therefore reasonable to infer that as an investor, he
knew of LSI’s officers and directors through LSI’s public
disclosure documents and other means. Pl.’s Trial Ex.
143. Bartlett confirmed in trial testimony that he was
intimately involved with FEQ Realty and the company
signed a written consulting agreement with LSI. Pl.’s
App. 91, ECF No. 307-1; Pl.’s Trial Ex. 114). The Court
finds that the jury could reasonably infer from all of the
evidence presented that Bartlett knew of Cohen’s fiduciary
relationship with LSI.
Lastly, Separate Defendants argue that Plaintiff failed
to prove an essential element of their claim because there
is no evidence in the record to support a jury finding that
Bartlett knowingly participated and provided substantial
assistance in connection with Cohen’s breach. Br. Supp.
Separate Defs.’ Mot. JMOL 18–19, ECF No. 294-1. The
Court disagrees. Bartlett’s company FEQ Realty had a
consulting agreement giving it broad powers to manage
and control LSI’s affairs. Pl.’s Trial Ex. 114. There is also
evidence that Bartlett and Appel regarded Cohen as their
inside man within LSI who they could use for information
and control. Bartlett attended LSI executive committee
meetings (Pl.’s Trial Ex. 88) and convinced DeJoria to
protect Cohen from being fired (Pl.’s Trial Ex. 318). LSI
associates also believed that Bartlett “interfere[ed] with
the day-to-day management of LSI almost on a daily
basis.” Pl.’s Trial Ex. 342. This is more than some evidence
that Bartlett knowingly participated in, and provided
substantial assistance to, Cohen’s breach of fiduciary duty.

56a
Appendix D
Separate Defendant’s also argue that Plaintiff failed
to establish that Bartlett’s actions proximately caused
damage to LSI. Separate Defendants raised many of
the same arguments for Bartlett as they did for Appel,
claiming there was insufficient evidence for the jury to
find that Bartlett’s actions resulted in $2.5 million in
damages to LSI. The Court therefore incorporates here its
reasoning on causation in Section III(A)(2) and holds that
there is sufficient evidence to show causation with respect
to Bartlett. Further, there is evidence that FEQ Realty,
a company owned and controlled by Bartlett, generated a
net profit of $2.3 million. Trial Tr. (Manz testimony) 37–38,
ECF No. 288. This, along with the evidence described in
Section III(A)(2) above, is more than sufficient to support
a jury finding that Bartlett’s actions proximately caused
damage to LSI in the amount of $2.5 million.
Accordingly, the Court DENIES Separate Defendant’s
Rule 50 motion as to Bartlett.
B. Separate Defendants’ Rule 59 Motion
The Fifth Circuit has held that a new trial is appropriate
where: (1) the verdict is against the weight of the evidence,
(2) the amount of damages awarded is excessive, or (3) the
trial was unfair or marred by prejudicial error. Seidman,
923 F.2d at 1140. “Courts do not grant new trials unless
it is reasonably clear that prejudicial error has crept into
the record or that substantial justice has not been done,
and the burden of showing harmful error rests on the
party seeking the new trial.” Del Rio, 589 F.2d at 179 n.3.
Separate Defendants argue that Plaintiff’s counsel made

57a
Appendix D
remarks about expert testimony in his closing statement
that were highly prejudicial. Defendants’ counsel objected
at the time and was overruled.9 The Court does not believe
the statement made by Plaintiff’s counsel caused manifest
injustice to the movants, and Separate Defendants have
failed to provide evidence of harmful error. The Court
therefore DENIES Separate Defendants’ motion for new
trial.
C. 	DeJoria’s Rule 50 Motion
The jury found DeJoria breached his fiduciary duty
and aided and abetted Cohen’s breach of fiduciary duty.
Jury Charge 6 –7, ECF No. 287. The jury assessed
damages against DeJoria totaling $1.5 million as to
Damage Element 1 and $1 million in exemplary damages.
9. The comment that Separate Defendants argue is
prejudicial reads in the transcript as follows:
Mr. Cullens: Thank you, Your Honor. Eight minutes?
. . . I will suggest to you what Mr. Shemin knows, but I
will make it clear. It would be improper for any experts
– You remember we went through all the experts. You
can’t state your personal opinion; that’s for the jury.
Mr. Shemin: Objection, Your Honor. I hate to object.
That’s just not an accurate statement of law.
Mr. Cullens: Your Honor, Federal Rules of Evidence
clearly –
The Court: Hold on. Hold on. I overrule the objection.
Go ahead.
See Min. Entry 19:17–20:9, ECF No. 293.

58a
Appendix D
Id. at 8, 10. DeJoria filed his motion for judgment as a
matter of law under Rule 50, or in the alternative, motion
to alter or amend the judgment, and motion for new trial
under Rule 59 on August 7, 2017. DeJoria Mot. JMOL,
ECF No. 296. DeJoria generally argues that the evidence
presented at trial was insufficient to support the jury
verdict.
To prove DeJoria breached his fiduciary duty to
LSI, Plaintiff was required to establish (1) a fiduciary
relationship; (2) a breach by DeJoria; and (3) that DeJoria’s
breach resulted in injury to Plaintiff or benefit to DeJoria.
Navigant Consulting, 508 F.3d at 283. The first element
is undisputed here—DeJoria as a director of LSI owed
the company a fiduciary duty from the time he became a
director on October 21, 2011, until September 14, 2012.
Jury Charge 5, ECF No. 287.
As to the second element, Plaintiff did not argue at
trial that DeJoria’s direct actions resulted in a breach of
his fiduciary duty. Rather, Plaintiff presented a theory that
DeJoria’s decision to refrain from acting in accordance
with his legal duties constituted a breach. Plaintiff argued
that DeJoria knew that the Jabil contract was harmful
to the company, that Appel and Bartlett’s influence hurt
LSI, and that DeJoria chose to do nothing while the
company floundered. Specifically, Plaintiff argued that
upon becoming a director of LSI in October 2011, DeJoria
had a duty to “immediately take the necessary steps to
terminate the Jabil contract and mitigate the damage
to LSI” and prevent Appel and Bartlett from exercising
control over LSI. Pl.’s Resp. 15, ECF No. 308.

59a
Appendix D
The Supreme Court recognized in Briggs that
directors and officers of a corporation are liable for losses
their company incurs due to their neglect of duty. Briggs v.
Spaulding, 141 U.S. 132, 146 (1891); see also 3A Fletcher
Cyclopedia Of The Law Of Private Corporations, 1082
(1986 rev. ed.) (“[D]irectors . . . liable for the losses caused
by their neglect of duty although such losses resulted after
they had ceased to be directors . . . .”). Plaintiff presented
evidence at trial that DeJoria knew of: (1) LSI’s insolvency
before LSI entered into the Jabil contract, saddling the
company with millions of dollars of debt; and (2) the shady
and damaging actions taken by Appel and Bartlett. The
Court is unpersuaded that the evidence of DeJoria’s
knowledge of LSI’s insolvency before LSI committed
to the Jabil contract sufficiently supports a finding that
DeJoria is liable for the damages resulting from the Jabil
contract. Plaintiff has not shown that DeJoria should
be liable for damages incurred by action that predates
his time as an LSI director. Nor has Plaintiff pointed to
evidence in the record that would support a conclusion that
he breached his fiduciary duty related to the Jabil contract
while he was a director. Cf. Navigant Consulting, 508 F.3d
at 283 (requiring the existence of a fiduciary relationship
to find a breach of fiduciary duty).
The Court does find, however, that there is sufficient
evidence to support Plaintiff’s alternative theory of
DeJoria’s breach—namely, DeJoria’s awareness of, and
failure to shield LSI from, the bad acts of Cohen, Appel,
and Bartlett. Plaintiff presented evidence that indicates
DeJoria knew of Appel and Bartlett’s self-dealing and
chose to move slowly rather than attempt to cancel their

60a
Appendix D
consulting agreements or halt their participation in LSI
affairs. Pl.’s App. 18–20, ECF No. 307-1 (Mar. 2, 2012
letter from Gustin, Wohler, and Link to DeJoria); Pl.’s
Trial Ex. 318 (Aug. 17, 2012 Wohler e-mail) (“[DeJoria] has
thwarted us on every single occasion. To the point where
he refused to acknowledge board minutes mentioning
wrongdoing of the Appel group.”). There is also evidence
that Appel and Bartlett persuaded DeJoria not to allow
CEO Wohler to fire Cohen after LSI associates became
aware of Cohen’s harmful actions. Pl.’s Trial Ex. 318
(Aug. 17, 2012 Wohler e-mail) (“I tried to fire [ ] Cohen for
numerous documented reasons with [DeJoria]’s authority
and then [Appel], [Bartlett] would call him and he would
force me to rescind the firing”). With this evidence,
the jury could reasonably infer that DeJoria’s actions
and inaction related to relieving Cohen of his duties
constituted a breach of his duty to LSI.
The third element requires Plaintiff to provide
evidence that proves DeJoria benefitted from his breach,
or that his breach caused damage to LSI. It is clear that
DeJoria did not benefit from his dealings with LSI; in
fact he lost a substantial amount of money. See DeJoria
Mot. JMOL 5, ECF No. 296 (containing a chart showing
DeJoria’s investments in LSI in 2011 and 2012). Plaintiff
presented evidence of a report addressed on February
9, 2012, to Gustin and DeJoria (also received by CEO
Wohler) summarizing documentation related to LSI stock
sales by Appel. Pl.’s Trial Ex. 333 (Lugo Report) (“I have
found numerous documents whereby shares are being
purchased at $1.00 per share by [ ] Appel and or persons
or corporations he may control and then sold into the open

61a
Appendix D
market at then current price [sic] with a spread of 2 to 3
points of immediate profits generated.”). LSI hired the
author of the report, Jose Antonio Lugo (“Lugo”), to look
into suspicions of market manipulation. July 13, 2017 Trial
Tr. 113:17–23 (Appel Cross). Lugo opined that under a
securities regulation known as Rule 16B, which regulates
insider trading, Appel should have paid back the profits
he made to LSI. See Pl.’s Trial Ex. 333. Months later, in
May 2012, Lugo alerted LSI associates that he believed
Appel would be considered an undisclosed investor by
the SEC and “[e]ach and every share that [ ] Appel has
purchased and sold can be considered by the SEC as
RESTRICTED SHARES SALES. [Appel] is an insider
and this will be a major problem for [LSI].” Pl.’s Trial Ex.
452 (Lugo e-email) (emphasis in original). This constitutes
sufficient evidence that DeJoria consciously disregarded
the activities of Cohen, Bartlett, and Appel. Moreover,
from the evidence presented that Appel was profiting
from LSI stock through insider trading, the jury could
reasonably infer that absent DeJoria’s protection of Cohen
and Appel, the damages incurred by the undisclosed sale
of LSI stock would not have occurred. Therefore, the jury
could reasonably infer that DeJoria’s acts proximately
caused damages to LSI. Accordingly, the Court finds
that sufficient evidence exists as to all three elements
to support a finding that DeJoria breached his fiduciary
duty to LSI.
The jury found DeJoria liable for $1.5 million in
liabilities incurred by LSI because of his breach of
fiduciary duty. Jury Charge 8, ECF No. 287. The Court
must determine whether there is sufficient evidence in the

62a
Appendix D
record to support the damage award. First, Manz testified
that his extensive investigation into LSI’s financials
informed his opinion that certain defendants, including
Appel and Bartlett, profited $5.1 million from the sale of
LSI stock. Trial Tr. (Manz testimony) 32–34, ECF No.
288. This evidence alone is not sufficient; the profit must
have occurred during DeJoria’s tenure. While DeJoria
was a director—from October 21, 2011 and through
February 7, 2012—Appel himself provided a record,
in the form of an e-mail, of the “Bartlett/Appel group”
buying well over 2 million shares and selling them into the
market. See Pl.’s Trial Ex. 124. At the minimum price of $1
per share (as described in Appel’s e-mail), the jury could
reasonably infer that Appel and Bartlett profited at least
$2 million during DeJoria’s tenure. This is more than some
evidence to support a jury finding that DeJoria’s breach
caused $1.5 million in damages to LSI. It was within the
jury’s discretion to award below the amount shown by the
evidence based on their credibility determinations.
Next, DeJoria also argues there is insufficient evidence
that he aided and abetted Cohen’s breach of fiduciary duty.
DeJoria Mot. JMOL 6–7, ECF No. 296. To prove this
claim at trial, Plaintiff was required to establish: (1) the
existence of a fiduciary relationship between Cohen and
LSI; (2) that DeJoria knew of that fiduciary relationship;
and (3) that DeJoria was aware that he was participating
in Cohen’s breach of that fiduciary relationship. Meadows,
492 F.3d at 639. The first element here is undisputed—the
parties agree that Cohen was an officer and director of
LSI and Cohen owed LSI a fiduciary duty. Jury Charge
5, 7, ECF No. 287. Second, Plaintiff offered evidence that

63a
Appendix D
DeJoria knew that Cohen was an officer and director
of LSI—DeJoria was a longtime investor in LSI and it
is therefore reasonable to infer that as an investor, he
knew of LSI’s officers and directors through LSI’s public
disclosure documents and other means. See Pl.’s Trial
Ex. 143.
Lastly, Plaintiff argues that by allowing Cohen, Appel,
and Bartlett to maintain control over LSI even after he
knew of their wrongdoing, DeJoria knowingly participated
in, and provided substantial assistance to, Cohen’s breach
of fiduciary duty. Pl.’s Resp. 9–13, ECF No. 308. There
is more than some evidence in the record—detailed
throughout this order—that DeJoria was fully aware
of that Cohen was mishandling LSI’s affairs. See, e.g.,
Defs.’ Ex. 421 at 58–65, ECF No. 276; Pl.’s App. 16, 18–20,
65–66, ECF No. 307-1. The evidence cited above shows
that Wohler and other LSI associates frequently informed
DeJoria of the day-to-day operations of the company and
warned him of Cohen’s dealings with Appel and Bartlett.
There is also evidence that Bartlett persuaded DeJoria not
to allow CEO Wohler to fire Cohen after LSI associates
became aware of Cohen’s harmful actions. Pl.’s Trial Ex.
318. This evidence supports the theory Plaintiff argued
at trial—that DeJoria knowingly participated in Cohen’s
breach by allowing Cohen to continue his wrongful actions,
namely giving Appel and Bartlett significant control over
LSI’s affairs, and these actions caused harm to LSI. The
Court finds that the evidence is sufficient to support a
finding that DeJoria aided and abetted Cohen’s breach
of fiduciary duty and DeJoria is therefore jointly and
severally liable for the damages assessed by Cohen’s
breach of fiduciary duty.

64a
Appendix D
The jury also awarded $1 million in exemplary
damages against DeJoria. Jury Charge 9–10, ECF
No. 287; see also Tex. Civ. Prac. & Rem. Code § 41.003
(requirements for award of exemplary damages). The
Court finds this award, based on the evidence presented
above of DeJoria’s conduct, is appropriate and reasonable
in relation to the actual damages awarded. See Roth v.
Mims, 298 B.R. 272, 297–98 (N.D. Tex. 2003).
For the reasons stated above, DeJoria’s Rule 50
motion is DENIED in its entirety.
D. 	DeJoria’s Rule 59 Motion
DeJoria formulaically concludes his Rule 50 motion
with a request that the Court grant a new trial in
this matter, but provides no argument or evidence of
prejudicial error or manifest injustice of the jury verdict.
DeJoria Mot. JMOL 19–20, ECF No. 296. As stated above,
the Fifth Circuit has found that a new trial is appropriate
where: (1) the verdict is against the weight of the evidence,
(2) the amount of damages awarded is excessive, or (3) the
trial was unfair or marred by prejudicial error. Seidman,
923 F.2d at 1140. “Courts do not grant new trials unless
it is reasonably clear that prejudicial error has crept into
the record or that substantial justice has not been done,
and the burden of showing harmful error rests on the
party seeking the new trial.” Del Rio, 589 F.2d at 179
n.3. The Court finds that DeJoria has failed to meet his
burden of showing why the Court must grant a new trial
and therefore DeJoria’s motion is DENIED.

65a
Appendix D
E. 	Plaintiff’s Rule 58 Amended Motion For
Judgment
The general rule, applicable here and in most cases,
which has been recognized repeatedly by the Texas
Supreme Court holds that: “The jury generally has
discretion to award damages within the range of evidence
presented at trial.” Sw. Energy Prod. Co., 491 S.W.3d at
713; see also, e.g., Gulf States Utils. Co. v. Low, 79 S.W.3d
561, 566 (Tex. 2002); Helena Chem. Co. v. Wilkins, 47
S.W.3d 486, 506 (Tex. 2001) (holding that evidence was
sufficient to support jury’s damage award where jury’s
damages finding was “within the range of evidence the
[plaintiff] presented”). The damage awards here were not
excessive but were within the range of damages presented
by Plaintiff at trial.
Texas law also states that if a third party knowingly
participates in a defendant’s breach of fiduciary duty owed
to a plaintiff, the third party is jointly liable with the
defendant for damages to the plaintiff proximately caused
by this breach of fiduciary duty, and the plaintiff has the
same equitable remedies against the defendant and the
third party based upon this breach. Kline v. O’Quinn,
874 S.W.2d 776, 786–87 (Tex. App.—Houston [14th Dist.]
1994, writ denied); Kinzbach v. Corbett–Wallace Corp.,
138 Tex. 565, 160 S.W.2d 509, 512–14 (1942). Therefore,
based on the jury findings and Texas law, the Court finds
that Appel, Bartlett, and DeJoria are jointly and severally
liable for the $6.9 million in compensatory damages
awarded against Cohen. Defendants Appel, Bartlett,
and DeJoria are also personally liable for the damages

66a
Appendix D
assessed against them for aiding and abetting Cohen’s
breach and exemplary damages. Cohen is also personally
liable for the exemplary damages assessed against him.
Plaintiff’s amended motion for judgment is therefore
GRANTED.
IV. CONCLUSION
For the reasons stated above, the Court finds that
Separate Defendants’ Motion to Alter Judgment as a
Matter of Law (ECF No. 294) should be and is hereby
DENIED; Defendant John Paul DeJoria’s Motion for
Judgment as a Matter of Law (ECF No. 296) should be
and is hereby DENIED; and Plaintiff’s Amended Motion
for Judgment (ECF No. 297) should be and is hereby
GRANTED. In light of this decision, the parties are to file
a joint status report no later than January 29, 2018, setting
forth what else needs to be accomplished to conclude this
matter.
SO ORDERED on this 22nd day of January, 2018.
/s/				
Reed O’Connor
United States District Judge

67a
Appendix
E OF THE UNITED
APPENDIX E — JURY
CHARGE
STATES DISTRICT COURT FOR THE NORTHERN
DISTRICT OF TEXAS, FORTH WORTH DIVISION,
FILED JULY 14, 2017
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
Civil Action No.: 4:15-cv-225-0
CAREY D. EBERT,
Plaintiff,
v.
MICHAEL GUSTIN, et al.,
Defendants.
JURY CHARGE
MEMBERS OF THE JURY:
Introduction
It is my duty and responsibility to instruct you on the
law you are to apply in this case. The law contained in these
instructions is the only law you may follow. It is your duty
to follow what I instruct you the law is, regardless of any
opinion that you might have as to what the law ought to be.

68a
Appendix E
If I have given you the impression during the trial that
I favor either party, you must disregard that impression.
If I have given you the impression during the trial that
I have an opinion about the facts of this case, you must
disregard that impression. You are the sole judges of the
facts of this case. Other than my instructions to you on
the law, you should disregard anything I may have said or
done during the trial in arriving at your verdict.
You should consider all of the instructions about the
law as a whole and regard each instruction in light of
the others, without isolating a particular statement or
paragraph.
The testimony of the witnesses and other exhibits
introduced by the parties constitute the evidence. The
statements of counsel are not evidence; they are only
arguments. It is important for you to distinguish between
the arguments of counsel and the evidence on which
those arguments rest. What the lawyers say or do is not
evidence. You may, however, consider their arguments in
light of the evidence that has been admitted and determine
whether the evidence admitted in this trial supports the
arguments. You must determine the facts from all the
testimony that you have heard and the other evidence
submitted. You are the judges of the facts, but in finding
those facts, you must apply the law as I instruct you.
You are required by law to decide the case in a fair,
impartial, and unbiased manner, based entirely on the law
and on the evidence presented to you in the courtroom.
You may not be influenced by passion, prejudice, or

69a
Appendix E
sympathy you might have for the plaintiff or the defendant
in arriving at your verdict.
Burden of Proof
Unless otherwise instructed, Plaintiff Carey Ebert,
as the Trustee, has the burden of proving her case
by a preponderance of the evidence. To establish by a
preponderance of the evidence means to prove something
is more likely so than not so. If you find that Carey
Ebert has failed to prove any element of her claim by a
preponderance of the evidence, then she may not recover
on that claim.
The Evidence
The evidence you are to consider consists of the
testimony of the witnesses, the documents and other
exhibits admitted into evidence, and any fair inferences
and reasonable conclusions you can draw from the facts
and circumstances that have been proven.
Generally speaking, there are two types of evidence.
One is direct evidence, such as testimony of an eyewitness.
The other is indirect or circumstantial evidence.
Circumstantial evidence is evidence that proves a fact
from which you can logically conclude an other fact exists.
As a general rule, the law makes no distinction between
direct and circumstantial evidence, but simply requires
that you find the facts from a preponderance of all the
evidence, both direct and circumstantial.

70a
Appendix E
Witness Testimony
You alone are to determine the questions of credibility
or truthfulness of the witnesses. In weighing the
testimony of the witnesses, you may consider the witness’s
manner and demeanor on the witness stand, any feelings
or interest in the case, or any prejudice or bias about
the case, that he or she may have, and the consistency
or inconsistency of his or her testimony considered in
the light of the circumstances. Has the witness been
contradicted by other credible evidence? Has he or she
made statements at other times and places contrary to
those made here on the witness stand? You must give the
testimony of each witness the credibility that you think
it deserves.
Even though a witness may be a party to the action
and therefore interested in its outcome, the testimony may
be accepted if it is not contradicted by direct evidence or
by any inference that may be drawn from the evidence, if
you believe the testimony.
You are not to decide this case by counting the number
of witnesses who have testified on the opposing sides.
Witness testimony is weighed; witnesses are not counted.
The test is not the relative number of witnesses, but the
relative convincing force of the evidence. The testimony
of a single witness is sufficient to prove any fact, even if
a greater number of witnesses testified to the contrary,
if after considering all of the other evidence, you believe
that witness.

71a
Appendix E
In weighing the credibility of a witness, you may
consider the fact that he or she has previously been
convicted of a felony. Such a conviction does not necessarily
destroy the witness’s credibility, but it is one of the
circumstances you may take into account in determining
the weight to give to his or her testimony.
In determining the weight to give to the testimony
of a witness, consider whether there was evidence that
at some other time the witness said or did something,
or failed to say or do something, that was different from
the testimony given at the trial. A simple mistake by a
witness does not necessarily mean that the witness did
not tell the truth as he or she remembers it. People may
forget some things or remember other things inaccurately.
If a witness made a misstatement, consider whether that
misstatement was an intentional falsehood or simply an
innocent mistake. The significance of that may depend on
whether it has to do with an important fact or with only
an unimportant detail.
When knowledge of technical subject matter may be
helpful to the jury, a person who has special training or
experience in that technical field is permitted to state his
or her opinion on those technical matters. However, you
are not required to accept that opinion. As with any other
witness, it is up to you to decide whether to rely on it.
Deposition Testimony
Certain testimony has been presented to you through
a deposition. A deposition is the sworn, recorded answers

72a
Appendix E
to questions a witness was asked in advance of the trial.
Under some circumstances, if a witness cannot be present
to testify from the witness stand, that witness’s testimony
may be presented, under oath, in the form of a deposition.
Sometime before this trial, attorneys representing the
parties in this case questioned this witness under oath. A
court reporter and sometimes a videographer was present
and recorded the testimony. During the course of the trial
the questions and answers have either been read to you or
presented by video. This deposition testimony is entitled
to the same consideration and is to be judged by you as to
credibility and weighed and otherwise considered by you
in the same way as if the witness had been present and
had testified from the witness stand in court.
No Inference from Filing Suit
The fact that Carey Ebert brought a lawsuit and is
in court seeking damages creates no inference that she
is entitled to a judgment. Anyone may make a claim and
file a lawsuit. The act of making a claim in a lawsuit, by
itself, does not in any way tend to establish that claim and
is not evidence.
Similar Acts
Evidence that an act was done at one time or on one
occasion is not any evidence or proof whatsoever that the
act was done in this case. Then how may you consider
evidence of similar acts?

73a
Appendix E
You may consider evidence of similar acts for the
limited purpose of showing motive, opportunity, intent,
knowledge, plan, identity, or absence of mistake or
accident, which is at issue in this case.
Such evidence may not be considered for any other
purpose whatsoever. You may not use the evidence to
consider or reflect an individual’s character.
Limiting Instruction
You will recall that during the course of this trial
I instructed you that I admitted certain testimony and
certain exhibits for a limited purpose. You may consider
such evidence only for the specific limited purpose for
which it was admitted.
Objections and Arguments by Counsel
During the course of the trial, you have heard counsel
make objections to evidence. It is the duty of the attorneys
on each side of the case to object when the other side offers
testimony or other evidence that the attorney believes is
not properly admissible. You should not draw any inference
against an attorney or his client because the attorney had
made an objection.
Upon allowing testimony or other evidence to be
introduced over the objection of any attorney, the Court
does not, unless expressly stated, indicate any opinion as
to the weight or effect of such evidence. You are the sole
judges of the credibility of all witnesses and the weight
and effect of all evidence.

74a
Appendix E
When the Court has sustained an objection to a
question addressed to a witness, or to the introduction
of any other evidence, you must disregard the question
entirely, and may draw no inference from the asking of
it, or speculate as to what the witness would have said if
the witness had been permitted to answer.
From time to time during the trial, it may have been
necessary for me to talk with the attorneys out of your
hearing, either by having a conference at the bench when
you were present in the courtroom, or by calling a recess.
The purpose of these conferences was not to keep relevant
information from you, but to decide how certain evidence
is to be treated under the rules of evidence and to avoid
confusion and error.
Definitions
You are hereby instructed that the follow ing
definitions apply to the Jury Instructions and Questions,
unless otherwise indicated.
The Parties
“Carey Ebert” refers to the Plaintiff Carey D. Ebert, as
trustee for the Chapter 11 bankruptcy estate of Latitude
Solutions, Inc.
“LSI” refers to Latitude Solutions, Inc.
“Howard Appel” refers to Defendant Howard Appel.

75a
Appendix E
“Ernest Bartlett” refers to Defendant Ernest Bartlett.
“Matthew Cohen” refers to Defendant Matthew Cohen
“John Paul DeJoria” refers to Defendant John Paul
DeJoria.
Stipulated Facts
A “stipulation” is an agreement. When there is no
dispute about certain facts, the attorneys may agree or
“stipulate” to those facts. You must accept a stipulated
fact as evidence and treat that fact as having been proven
here in court.
You are hereby instructed that the following stipulated
facts apply to the Jury Instructions and Questions, unless
otherwise indicated.
1.

Matthew Cohen was a founding member of LSI
and was named as officer and director of LSI
in March 2009. Matthew Cohen resigned as an
officer and director of LSI in June 2012.

2.

John Paul DeJoria was named as director of LSI
on October 21, 2011 and resigned as a director of
LSI on September 14, 2012. John Paul DeJoria
was never an officer of LSI.

With this information, please answer the following
questions.

76a
Appendix E
FIDUCIARY DUTY
QUESTION NO. 1
You are instructed that an officer or director owes a
fiduciary duty to a corporation during the period of time
that he was an officer or director of the corporation. The
period of time relevant to each defendant in connection
with this question for LSI is as follows:
1.

Matthew Cohen-- March 2009 until June 2012.

2.

John Paul DeJoria -- October 21, 2011 until
September 14, 2012.

You are further instructed that to prove that a
defendant failed to comply with his fiduciary duty to LSI,
Carey Ebert, as Trustee, must prove that the defendant
failed to comply with either a duty of loyalty or duty of
care owed to LSI. The duty of loyalty requires that an
officer or director act in good faith and not allow his or
her personal interest to prevail over the interest of the
corporation. The duty of loyalty is described as requiring
an extreme measure of candor, unselfishness, and good
faith on the part of the officer or director. The duty of care
requires that the officer or director handle his corporate
duties with the diligence and prudence that an ordinarily
prudent person would use under similar circumstances.
In addition, you are instructed claims may be
maintained against corporate fiduciaries where there is
no showing of any personal benefit if the corporation is
damaged.

77a
Appendix E
You are further instructed that a director or officer
shall not be held liable if his conduct falls within the
business judgment rule, as defined in these instructions.
The business judgment rule provides that, however
mistaken a decision may appear in hindsight, an officer or
director of a corporation cannot be liable for claims against
him if, in the discharge of his duties, he exercised ordinary
care and acted in good faith and honestly exercised his
best business judgment within the limits of the actual
authority of his position with the corporation. A director
shall not be held liable for honest mistake of judgment if
he acted with due care, in good faith, and in furtherance
of a rational business purpose.
Did any defendant listed below fail to comply with
his fiduciary duty to LSI during the period of time that
defendant was an officer or director of LSI?
Defendants

Answer “Yes” or “No”
for each Defendant

Matthew Cohen

YES

John Paul DeJoria

YES

QUESTION NO.2
If you answered “Yes” for any defendant in Question
No. 1, then answer Questions 2A, 2B, and 2C. Otherwise,
do not answer the following question.

78a
Appendix E
To establish a claim for aiding and abetting in a
breach of fiduciary duty, Carey Ebert, as LSI’s trustee,
must prove: (1) the existence of a fiduciary relationship;
(2) that the third party knew of the fiduciary relationship;
and (3) that the third party knowingly participated and
provided substantial assistance in the breach of that
fiduciary relationship.
If you found that there was a breach of fiduciary duty
by any defendant, did any of the following defendants
knowingly aid and abet in such breach of fiduciary duty?
QUESTION NO. 2A
Did Howard Appel aid and abet Matthew Cohen
in committing the breach of fiduciary duty
that you found Matthew Cohen committed in
response to Question No. 1?
Answer “Yes” or “No”: YES
QUESTION NO. 2B
Did Ernest Bartlett aid and abet Matthew
Cohen in committing the breach of fiduciary
duty that you found Matthew Cohen committed
in response to Question No. 1?
Answer “Yes” or “No”: YES

79a
Appendix E
QUESTION NO. 2C
Did John Paul Dejoria aid and abet Matthew
Cohen in committing the breach of fiduciary
duty that you found Matthew Cohen committed
in response to Question No. 1?
Answer “Yes” or “No”: YES
QUESTION NO.3
If you found, in response to Question No. 1 that there
was a breach of fiduciary duty by any defendant, then
answer the following question. Otherwise, do not answer
the following question.
What sum of money, if any, if paid now in cash, would
fairly and reasonably compensate Carey Ebert, as LSI’s
trustee, for the damages, if any, that were proximately
caused by any breach of fiduciary duty or aiding and
abetting such breach of fiduciary duty by that defendant?
“Proximate cause” means a cause that was a
substantial factor in bringing about an event, and without
which cause such event would not have occurred. In order
to be a proximate cause, the act or omission complained
of must be such that a person using the degree of care
required of him would have foreseen that the event, or
some similar event, might reasonably result therefrom.
There may be more than one proximate cause of an event.

80a
Appendix E
In answering questions about damages, answer
each question separately. Do not increase or reduce the
amount in one answer because of your answer to any other
question about damages. Do not speculate about what
any party’s ultimate recovery may or may not be. Any
recovery will be determined by the court when it applies
the law to your answers at the time of judgment. Do not
add any amount for interest on damages, if any. Consider
the following elements of damages, if any, and none other.
1.

The reasonable cash market value of liabilities
incurred by LSI as a proximate cause of that
defendant’s breach of fiduciary duty, which
liabilities are still owed and have not yet been
paid, if any.

2.

The reasonable market value of any gains to that
defendant (including salaries, consulting fees, net
proceeds from stock issuances to directors and/or
officers of LSI, and other expenses) proximately
caused by that defendant’s breach of fiduciary
duty.

Answer separately in dollars and cents for damages,
if any.
Defendant

Damage
Element No. 1

Damage
Element No. 2

Howard Appel

$0

$2.5 Million

Ernest
Bartlett

$0

$2.5 Million

81a
Appendix E
Matthew
Cohen

$6.5 Million

$400,000

John Paul
DeJoria

$1.5 Million

$0

QUESTION NO. 4
Answer the following question regarding a defendant
only if you answered “Yes” to Question No.1 (breach of
fiduciary duty) or any portion of Question No.2 (aiding
and abetting breach of fiduciary duty) regarding that
defendant. Otherwise, do not answer the following
question regarding that defendant.
“Clear and convincing evidence” means the measure
or degree of proof that produces a firm belief or conviction
of the truth of the allegations sought to be established.
“Gross negligence” means an act or omission by the
defendant
1.

which when viewed objectively from the standpoint
of the defendant at the time of its occurrence
involves an extreme degree of risk, considering
the probability and magnitude of the potential
harm to others; and

2.

of which the defendant has actual, subjective
awareness of the risk involved, but nevertheless
proceeds with conscious indifference to the
rights, safety, or welfare of others.

82a
Appendix E
“Malice” means a specific intent by the defendant to
cause substantial injury or harm to LSI.
Do you find by clear and convincing evidence that the
harm to LSI related to the breach of fiduciary duty you
found, or aiding and abetting such breach, resulted from
gross negligence or malice?
Defendants

Answer “Yes” or “No”
for each Defendant, if
you answered “Yes” for
that Defendant in either
Question Nos. 1 or 2

Howard Appel

YES

Ernest Bartlett

NO

Matthew Cohen

YES

John Paul Deloria

YES

QUESTION NO. 5
Answer the following question regarding a defendant
only if you answered “Yes” to Question No. 4 regarding
that defendant. Otherwise, do not answer the following
question regarding that defendant.
“Exemplary damages” means an amount that you
may in your discretion award as a penalty or by way of
punishment.
Factors to consider in awarding exemplary damages,
if any, are—

83a
Appendix E
1.

The nature of the wrong.

2.

The character of the conduct involved.

3.

The degree of culpability of the defendant.

4.

The situation and sensibilities of the parties
concerned.

5.

The extent to which such conduct offends a public
sense of justice and propriety.

6.

The net worth of the defendant.

What sum of money, if any, if paid now in cash, should
be assessed against the defendants and awarded to Carey
Ebert, as LSI’s trustee, as exemplary damages, if any, for
the conduct found in response to Question No. 4?
Defendants

Answer separately in
dollars and cents for
exemplary damages, if
any Defendants only
for any defendant that
you answered “Yes” in
response to Question
No. 4

Howard Appel

$5 Million

Ernest Bartlett
Matthew Cohen

$2 Million

John Paul Deloria

$1 Million

84a
Appendix E
Jury Deliberations
It is now your duty to deliberate and to consult
with one another in an effort to reach a verdict. Each of
you must decide the case for yourself, but only after an
impartial consideration of the evidence with your fellow
jurors. During your deliberations, do not hesitate to
reexamine your own opinions and change your mind if
you are convinced that you were wrong. But do not give
up on your honest beliefs because the other jurors think
differently, or just to finish the case.
When you go into the jury room to deliberate, you may
take with you a copy of this charge and the exhibits that I
have admitted into evidence. You must select a foreperson
to guide you in your deliberations and to speak for you
here in the courtroom.
Your verdict must be unanimous. After you have
reached a unanimous verdict, your foreperson must fill out
the answers to the written questions on the verdict form
and sign and date it. After you have concluded your service
and I have discharged the jury, you are not required to
talk with anyone about the case.
If you need to communicate with me during your
deliberations, the foreperson should write the inquiry
and give it to the court security officer. After consulting
with the attorneys, I will respond either in writing or by
meeting with you in the courtroom. Keep in mind, however,
that you must never disclose to anyone, not even to me,
your numerical division on any question.

85a
Appendix E
You may now proceed to the jury room to begin your
deliberations.
/s/				
Presiding Judge
July 14, 2017			
Date
Jury Certification
The foregoing answers are the unanimous answers
of the jury.
/s/				
Foreperson
July 14, 2017			
Date

86a
APPENDIX F —Appendix
DENIAL FOF REHEARING
OF THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT, FILED JUNE 12, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-10382
IN THE MATTER OF: LATITUDE SOLUTIONS,
INCORPORATED,
Debtor.
CAREY D. EBERT,
Appellee,
v.
JOHN PAUL DEJORIA; HOWARD MILLER APPEL;
EARNEST A. BARTLETT, III; MATTHEW J. COHEN,
Appellants.
Appeals from the United States District Court
for the Northern District of Texas
ON PETITION FOR REHEARING AND
REHEARING EN BANC
(Opinion 04/30/2019, 5 Cir.,

,

F.3d

)

Before BARKSDALE, SOUTHWICK, and HAYNES,
Circuit Judges.
PER CURIAM:
 The Petition for Rehearing of Appellee Carey D.
Ebert is DENIED and no member of this panel nor

87a
Appendix F
judge in regular active service on the court having
requested that the court be polled on Rehearing En
Banc, (Fed. R. A pp. P. and 5TH Cir. R. 35) the Petition
for Rehearing En Banc is also DENIED.
 The Petition for Rehearing of Appellee Carey D.
Ebert is DENIED and the court having been polled
at the request of one of the members of the court and
a majority of the judges who are in regular active
service and not disqualified not having voted in favor,
(Fed. R. A pp. P. and 5TH Cir. R. 35) the Petition for
Rehearing En Banc is also DENIED.
 A member of the court in active service having
requested a poll on the reconsideration of this cause en
banc, and a majority of the judges in active service and
not disqualified not having voted in favor, Rehearing
En Banc is DENIED.
ENTERED FOR THE COURT:
/s/
CATHARINA HAYNES
U N I T ED S TAT E S CI RCU I T
JUDGE

88a
Appendix AND
G
Appendix G — STATUTES
REGULATIONS
U.S.C.A. Const. Art. III § 2, cl. 1
Section 2, Clause 1. Jurisdiction of Courts
Section 2. The judicial Power shall extend to all
Cases, in Law and Equity, arising under this Constitution,
the Laws of the United States, and Treaties made,
or which shall be made, under their Authority;--to all
Cases affecting Ambassadors, other public Ministers
and Consuls;--to all Cases of admiralty and maritime
Jurisdiction;--to Controversies to which the United States
shall be a Party;--to Controversies between two or more
States;--between a State and Citizens of another State;-between Citizens of different States;--between Citizens of
the same State claiming Lands under Grants of different
States, and between a State, or the Citizens thereof, and
foreign States, Citizens or Subjects.

89a
Appendix G
11 U.S.C.A. § 541
§ 541. Property of the estate
(a) The commencement of a case under section 301, 302, or
303 of this title creates an estate. Such estate is comprised
of all the following property, wherever located and by
whomever held:
(1) Except as provided in subsections (b) and (c)(2)
of this section, all legal or equitable interests of the
debtor in property as of the commencement of the case.
****

90a
Appendix G
11 U.S.C.A. § 704
§ 704. Duties of trustee
(a) The trustee shall-(1) collect and reduce to money the property of the
estate for which such trustee serves, and close such
estate as expeditiously as is compatible with the best
interests of parties in interest;
****

91a
Appendix G
28 U.S.C.A. § 157
§ 157. Procedures
(a) Each district court may provide that any or all cases
under title 11 and any or all proceedings arising under title
11 or arising in or related to a case under title 11 shall be
referred to the bankruptcy judges for the district.
(b)(1) Bankruptcy judges may hear and determine all
cases under title 11 and all core proceedings arising under
title 11, or arising in a case under title 11, referred under
subsection (a) of this section, and may enter appropriate
orders and judgments, subject to review under section
158 of this title.
(2) Core proceedings include, but are not limited to-(A) matters concerning the administration of the
estate;
(B) allowance or disallowance of claims against the
estate or exemptions from property of the estate, and
estimation of claims or interests for the purposes of
confirming a plan under chapter 11, 12, or 13 of title
11 but not the liquidation or estimation of contingent
or unliquidated personal injury tort or wrongful death
claims against the estate for purposes of distribution
in a case under title 11;
(C) counterclaims by the estate against persons filing
claims against the estate;

92a
Appendix G
(D) orders in respect to obtaining credit;
(E) orders to turn over property of the estate;
(F) proceedings to determine, avoid, or recover
preferences;
(G) motions to terminate, annul, or modify the
automatic stay;
(H) proceedings to determine, avoid, or recover
fraudulent conveyances;
(I) determinations as to the dischargeability of
particular debts;
(J) objections to discharges;
(K) determinations of the validity, extent, or priority
of liens;
(L) confirmations of plans;
(M) orders approving the use or lease of property,
including the use of cash collateral;
(N) orders approving the sale of property other than
property resulting from claims brought by the estate
against persons who have not filed claims against the
estate;

93a
Appendix G
(O) other proceedings affecting the liquidation of the
assets of the estate or the adjustment of the debtorcreditor or the equity security holder relationship,
except personal injury tort or wrongful death claims;
and
(P) recognition of foreign proceedings and other
matters under chapter 15 of title 11.
(3) The bankruptcy judge shall determine, on the judge’s
own motion or on timely motion of a party, whether a
proceeding is a core proceeding under this subsection or
is a proceeding that is otherwise related to a case under
title 11. A determination that a proceeding is not a core
proceeding shall not be made solely on the basis that its
resolution may be affected by State law.
(4) Non-core proceedings under section 157(b)(2)(B) of
title 28, United States Code, shall not be subject to the
mandatory abstention provisions of section 1334(c)(2).
(5) The district court shall order that personal injury tort
and wrongful death claims shall be tried in the district
court in which the bankruptcy case is pending, or in the
district court in the district in which the claim arose, as
determined by the district court in which the bankruptcy
case is pending.
(c)(1) A bankruptcy judge may hear a proceeding that is
not a core proceeding but that is otherwise related to a case
under title 11. In such proceeding, the bankruptcy judge
shall submit proposed findings of fact and conclusions of

94a
Appendix G
law to the district court, and any final order or judgment
shall be entered by the district judge after considering
the bankruptcy judge’s proposed findings and conclusions
and after reviewing de novo those matters to which any
party has timely and specifically objected.
(2) Notwithstanding the provisions of paragraph (1) of this
subsection, the district court, with the consent of all the
parties to the proceeding, may refer a proceeding related
to a case under title 11 to a bankruptcy judge to hear and
determine and to enter appropriate orders and judgments,
subject to review under section 158 of this title.
(d) The district court may withdraw, in whole or in part,
any case or proceeding referred under this section, on its
own motion or on timely motion of any party, for cause
shown. The district court shall, on timely motion of a
party, so withdraw a proceeding if the court determines
that resolution of the proceeding requires consideration of
both title 11 and other laws of the United States regulating
organizations or activities affecting interstate commerce.
(e) If the right to a jury trial applies in a proceeding
that may be heard under this section by a bankruptcy
judge, the bankruptcy judge may conduct the jury trial
if specially designated to exercise such jurisdiction by
the district court and with the express consent of all the
parties.

95a
Appendix G
28 U.S.C.A. § 158
§ 158. Appeals
(a) The district courts of the United States shall have
jurisdiction to hear appeals
(1) from final judgments, orders, and decrees;
(2) from interlocutory orders and decrees issued under
section 1121(d) of title 11 increasing or reducing the
time periods referred to in section 1121 of such title;
and
(3) with leave of the court, from other interlocutory
orders and decrees;
of bankruptcy judges entered in cases and proceedings
referred to the bankruptcy judges under section 157 of
this title. An appeal under this subsection shall be taken
only to the district court for the judicial district in which
the bankruptcy judge is serving.
(b)(1) The judicial council of a circuit shall establish
a bankruptcy appellate panel service composed of
bankruptcy judges of the districts in the circuit who
are appointed by the judicial council in accordance with
paragraph (3), to hear and determine, with the consent
of all the parties, appeals under subsection (a) unless the
judicial council finds that--

96a
Appendix G
(A) there are insufficient judicial resources available
in the circuit; or
(B) establishment of such service would result in undue
delay or increased cost to parties in cases under title
11.
Not later than 90 days after making the finding, the
judicial council shall submit to the Judicial Conference of
the United States a report containing the factual basis of
such finding.
(2)(A) A judicial council may reconsider, at any time,
the finding described in paragraph (1).
(B) On the request of a majority of the district judges
in a circuit for which a bankruptcy appellate panel
service is established under paragraph (1), made after
the expiration of the 1-year period beginning on the
date such service is established, the judicial council
of the circuit shall determine whether a circumstance
specified in subparagraph (A) or (B) of such paragraph
exists.
(C) On its own motion, after the expiration of the
3-year period beginning on the date a bankruptcy
appellate panel service is established under paragraph
(1), the judicial council of the circuit may determine
whether a circumstance specified in subparagraph (A)
or (B) of such paragraph exists.

97a
Appendix G
(D) If the judicial council finds that either of such
circumstances exists, the judicial council may provide
for the completion of the appeals then pending before
such service and the orderly termination of such
service.
(3) Bankruptcy judges appointed under paragraph
(1) shall be appointed and may be reappointed
under such paragraph.
(4) If authorized by the Judicial Conference of the
United States, the judicial councils of 2 or more
circuits may establish a joint bankruptcy appellate
panel comprised of bankruptcy judges from the
districts within the circuits for which such panel
is established, to hear and determine, upon the
consent of all the parties, appeals under subsection
(a) of this section.
(5) An appeal to be heard under this subsection
shall be heard by a panel of 3 members of the
bankruptcy appellate panel service, except that
a member of such service may not hear an appeal
originating in the district for which such member
is appointed or designated under section 152 of
this title.
(6) Appeals may not be heard under this subsection
by a panel of the bankruptcy appellate panel
service unless the district judges for the district
in which the appeals occur, by majority vote, have
authorized such service to hear and determine
appeals originating in such district.

98a
Appendix G
(c)(1) Subject to subsections (b) and (d)(2), each appeal
under subsection (a) shall be heard by a 3-judge panel of
the bankruptcy appellate panel service established under
subsection (b)(1) unless-(A) the appellant elects at the time of filing the appeal;
or
(B) any other party elects, not later than 30 days after
service of notice of the appeal;
to have such appeal heard by the district court.
(2) An appeal under subsections (a) and (b) of this
section shall be taken in the same manner as appeals
in civil proceedings generally are taken to the courts
of appeals from the district courts and in the time
provided by Rule 8002 of the Bankruptcy Rules.
(d)(1) The courts of appeals shall have jurisdiction of
appeals from all final decisions, judgments, orders, and
decrees entered under subsections (a) and (b) of this
section.
(2)(A) The appropriate court of appeals shall have
jurisdiction of appeals described in the first sentence
of subsection (a) if the bankruptcy court, the district
court, or the bankruptcy appellate panel involved,
acting on its own motion or on the request of a party
to the judgment, order, or decree described in such
first sentence, or all the appellants and appellees (if
any) acting jointly, certify that--

99a
Appendix G
(i) the judgment, order, or decree involves a
question of law as to which there is no controlling
decision of the court of appeals for the circuit or of
the Supreme Court of the United States, or involves
a matter of public importance;
(ii) the judgment, order, or decree involves a
question of law requiring resolution of conflicting
decisions; or
(iii) an immediate appeal from the judgment, order,
or decree may materially advance the progress of
the case or proceeding in which the appeal is taken;
and if the court of appeals authorizes the direct appeal of
the judgment, order, or decree.
(B) If the bankruptcy court, the district court, or the
bankruptcy appellate panel-(i) on its own motion or on the request of a party,
determines that a circumstance specified in clause
(i), (ii), or (iii) of subparagraph (A) exists; or
(ii) receives a request made by a majority of the
appellants and a majority of appellees (if any) to
make the certification described in subparagraph
(A);
then the bankruptcy court, the district court, or the
bankruptcy appellate panel shall make the certification
described in subparagraph (A).

100a
Appendix G
(C) The parties may supplement the certification with
a short statement of the basis for the certification.
(D) An appeal under this paragraph does not stay
any proceeding of the bankruptcy court, the district
court, or the bankruptcy appellate panel from which
the appeal is taken, unless the respective bankruptcy
court, district court, or bankruptcy appellate panel,
or the court of appeals in which the appeal is pending,
issues a stay of such proceeding pending the appeal.
(E) A ny request under subparag raph (B) for
certification shall be made not later than 60 days after
the entry of the judgment, order, or decree.

101a
Appendix G
28 U.S.C.A. § 1254
§ 1254. Courts of appeals; certiorari; certified questions
Cases in the courts of appeals may be reviewed by the
Supreme Court by the following methods:
(1) By writ of certiorari granted upon the petition of
any party to any civil or criminal case, before or after
rendition of judgment or decree;
(2) By certification at any time by a court of appeals
of any question of law in any civil or criminal case
as to which instructions are desired, and upon such
certification the Supreme Court may give binding
instructions or require the entire record to be sent up
for decision of the entire matter in controversy.

102a
Appendix G
28 U.S.C.A. § 1334
§ 1334. Bankruptcy cases and proceedings
(a) Except as provided in subsection (b) of this section,
the district courts shall have original and exclusive
jurisdiction of all cases under title 11.
(b) Except as prov ided in subsection (e)(2), and
notwithstanding any Act of Congress that confers
exclusive jurisdiction on a court or courts other than the
district courts, the district courts shall have original but
not exclusive jurisdiction of all civil proceedings arising
under title 11, or arising in or related to cases under title
11.
(c)(1) Except with respect to a case under chapter 15 of
title 11, nothing in this section prevents a district court
in the interest of justice, or in the interest of comity with
State courts or respect for State law, from abstaining from
hearing a particular proceeding arising under title 11 or
arising in or related to a case under title 11.
(2) Upon timely motion of a party in a proceeding based
upon a State law claim or State law cause of action, related
to a case under title 11 but not arising under title 11 or
arising in a case under title 11, with respect to which an
action could not have been commenced in a court of the
United States absent jurisdiction under this section, the
district court shall abstain from hearing such proceeding
if an action is commenced, and can be timely adjudicated,
in a State forum of appropriate jurisdiction.

103a
Appendix G
(d) Any decision to abstain or not to abstain made
under subsection (c) (other than a decision not to abstain
in a proceeding described in subsection (c)(2)) is not
reviewable by appeal or otherwise by the court of appeals
under section 158(d), 1291, or 1292 of this title or by the
Supreme Court of the United States under section 1254
of this title. Subsection (c) and this subsection shall not be
construed to limit the applicability of the stay provided
for by section 362 of title 11, United States Code, as such
section applies to an action affecting the property of the
estate in bankruptcy.
(e) The district court in which a case under title 11 is
commenced or is pending shall have exclusive jurisdiction-(1) of all the property, wherever located, of the debtor
as of the commencement of such case, and of property
of the estate; and
(2) over all claims or causes of action that involve
construction of section 327 of title 11, United States
Code, or rules relating to disclosure requirements
under section 327.

